<html>
<title> - THE CLEAN UP OF THE U.S. POSTAL SERVICE'S BRENTWOOD PROCESSING AND DISTRIBUTION CENTER</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  THE CLEAN UP OF THE U.S. POSTAL SERVICE'S BRENTWOOD PROCESSING AND 
                          DISTRIBUTION CENTER
=======================================================================



                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 26, 2002

                               __________

                           Serial No. 107-178

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform





                       U. S. GOVERNMENT PRINTING OFFICE
85-726                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                Subcommittee on the District of Columbia

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
CHRISTOPHER SHAYS, Connecticut       DIANE E. WATSON, California
                                     STEPHEN F. LYNCH, Massachusetts

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
               Matthew Batt, Legislative Assistant/Clerk
                      Shalley Kim, Staff Assistant
           Denise Wilson, Minority Professional Staff Member























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 26, 2002....................................     1
Statement of:
    Day, Thomas, vice president of engineering, U.S. Postal 
      Service; Orange, Vincent B., ward 5, Council of the 
      District of Columbia; Ted Gordon, senior deputy director 
      for public health assurance, District of Columbia 
      Department of Health; Dr. Rosemary K. Sokas, Associate 
      Director for Science, National Institute for Occupational 
      Safety and Health, CDC; and Thomas Voltaggio, 
      Administrator, Environmental Protection Agency Region III..     6
    Hegarty, John F., national president, National Postal Mail 
      Handlers Union; Alan C. Ferranto, director of safety and 
      health, National Association of Letter Carriers; and Roy 
      Braunstein, legislative director, American Postal Workers 
      Union......................................................    66
    Martin, Louise, president, Brentwood Civic Association; and 
      James M. McGee, president, National Alliance of Postal and 
      Federal Employees..........................................    98
Letters, statements, etc., submitted for the record by:
    Braunstein, Roy, legislative director, American Postal 
      Workers Union, prepared statement of.......................    83
    Day, Thomas, vice president of engineering, U.S. Postal 
      Service, prepared statement of.............................    10
    Ferranto, Alan C., director of safety and health, National 
      Association of Letter Carriers, prepared statement of......    77
    Gordon, Ted, senior deputy director for public health 
      assurance, District of Columbia Department of Health, 
      prepared statement of......................................    19
    Hegarty, John F., national president, National Postal Mail 
      Handlers Union, prepared statement of......................    69
    Martin, Louise, president, Brentwood Civic Association, 
      prepared statement of......................................    99
    McGee, James M., president, National Alliance of Postal and 
      Federal Employees, prepared statement of...................   103
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   109
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     4
    Orange, Vincent B., ward 5, Council of the District of 
      Columbia, prepared statement of............................    50
    Sokas, Dr. Rosemary K., Associate Director for Science, 
      National Institute for Occupational Safety and Health, CDC, 
      prepared statement of......................................    28
    Voltaggio, Thomas, Administrator, Environmental Protection 
      Agency Region III, prepared statement of...................    39





















  THE CLEAN UP OF THE U.S. POSTAL SERVICE'S BRENTWOOD PROCESSING AND 
                          DISTRIBUTION CENTER

                              ----------                              


                         FRIDAY, JULY 26, 2002

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:19 a.m., at 
the Gallaudet University Kellogg Conference Center, Washington, 
DC, Hon. Eleanor Holmes Norton (acting chairwoman of the 
subcommittee) presiding.
    Present: Representative Norton.
    Staff present: Russell Smith, staff director; Heea 
Vazirani-Fales, counsel; Robert White, communications director; 
Matthew Batt, legislative assistant/clerk; Shalley Kim, staff 
assistant; Jon Bouker, minority counsel; Denise Wilson, 
minority professional staff member; and Jean Gosa, minority 
assistant clerk.
    Ms. Norton. I want to call this hearing to order and 
explain why I am the one calling it to order. The subcommittee 
chair, Representative Morella, of course has every intention of 
being here even now, but the homeland security bill, which has 
some amendments that she has submitted, has been moved up and 
is on the floor as we speak.
    This hearing on the cleanup of the Brentwood postal 
facility and the effects of the tragedy and of the cleanup on 
employees and residents and customers we believe had to go 
forward in any case, particularly considering that cleanup is 
about to begin and that it would seriously inconvenience 
members of the public and witnesses if in light of the schedule 
of the Congress we were to postpone this hearing.
    I must say, I have an amendment as well on the floor that 
has been incorporated into an important set of amendments as an 
amendment to preserve the same level of pay for civil servants 
who get moved, as they now have, when consolidation occurs. I 
also would very much want to be there. The difference between 
Ms. Morella and me is that she is allowed to vote on her 
amendment and I would not be allowed to vote anyway, so we 
thought we would just as well start the hearing.
    But before we take up any business with respect to 
Brentwood, I would ask you to take a moment of silence in 
memory of Joseph Curseen Jr. and Thomas Morris Jr., the two 
Postal Service workers we lost at Brentwood in October.
    Thank you.
    I want to thank our chair, Representative Connie Morella, 
for responding to my request for a field hearing on the 
Brentwood facility and the tragedy that occurred there. The 
Postal Service and District officials have had meetings in the 
Brentwood community, but this is the first congressional 
hearing on Brentwood over which the Congress has jurisdiction.
    I asked for this hearing in the field, as it is called, 
which brings the Congress to the community, rather than the 
other way around, to facilitate attendance by residents and 
employees and to stress the importance of ongoing congressional 
oversight over Brentwood itself. I am grateful to Gallaudet 
President I. King Jordan and the Kellogg Conference Center for 
contributing the excellent space that we are using today for 
our hearing in a beautiful facility located in the ward 5 
Brentwood community not far from the post office itself.
    This hearing comes as the cleanup is set to begin. However, 
there are many questions that remain unanswered following the 
anthrax tragedy. I will be particularly interested today in the 
health effects on employees and residents who may have been 
exposed, on what measures are planned to prevent any recurrence 
of a bioterrorist threat or events, and on what measures will 
be taken to protect the community from the substances to be 
used in the Brentwood decontamination process.
    This hearing also will serve an important purpose if it 
helps to separate fact from conjecture, and if it helps to 
relieve fears among employees and residents. Anthrax is too 
serious a threat for armchair views about cause and effect. 
Even the experts were wrong on anthrax. The underdeveloped 
science led them to focus on the site where the deadly envelope 
was opened, not on Brentwood where it was processed.
    Ironically, no one died or even became ill in the Senate 
Hart Building, but we lost two postal workers and two others 
became seriously ill at Brentwood. The anthrax experience 
encourages caution in our claims concerning what caused or will 
cause what effects. Brentwood teaches us all--experts, 
employees and residents alike--that understanding anthrax is a 
scientific work in progress.
    I am particularly concerned that some employees and 
residents, whether exposed or not, fear that their health may 
be in danger now or in the future. In particular, the 
experience of African Americans in this country with health 
abuses by government officials from forced sterilization to the 
Tuskegee syphilis experiment has left residual doubts 
concerning government assurances during health controversies. 
The Brentwood tragedy did not help to allay such skepticism.
    Yet despite the incomplete scientific understanding that 
led experts to underestimate the dangers of anthrax at 
Brentwood, the only way to get beyond our fears is to seek and 
use the best scientific knowledge available. Therefore, today I 
will ask the Centers for Disease Control to do a controlled 
study to assure that there are no residual effects on the 
health of employees and Postal Service customers now or in the 
future, resulting from anthrax contamination or from substances 
used to decontaminate anthrax.
    There are a number of ways to accomplish this purpose, 
including an epidemiological study of the affected D.C. workers 
and residents here, compared to a comparable population where 
no anthrax contamination occurred. If mortality and health 
results are similar, there would be some reassurance concerning 
the health of the affected population here. If not, we would 
have reason to do further investigation here.
    Brentwood is vastly different from Hart in size, 
configuration, purpose and machinery. However, Hart, where 
Senate offices are located, became the guinea pig for an 
anthrax cleanup. Every precaution was taken and no cost was 
spared there, we are told. The Hart Building has become the 
gold standard for cleanup, detection and prevention. Members of 
the Senate and their staffs and their loved ones and their 
children now go into Hart every day. We must insist that no 
less be done for Brentwood.
    Similarly, Capitol Hill residents were the first whose 
community experienced a biohazard cleanup of anthrax, using 
substances that will be applied at Brentwood. The experience of 
that ward 6 D.C. community with preparation for the cleanup and 
its effects since, should be instructive to the ward 5 
Brentwood community. We must take no chances at Brentwood. The 
Brentwood tragedy revealed just how thin our knowledge of 
anthrax was. We knew too little a year ago and we still know 
too little. For example, the government cannot yet identify who 
sent the letter.
    The price employees paid at Brentwood in loss of life and 
health and in continuing fears, anxiety and dislocation has 
been too high. Today, employees, residents and this 
subcommittee are owed the highest degree of assurance of a safe 
cleanup, followed by a safe facility and a safe community. We 
welcome today's witnesses and will listen with great interest 
their concerns and to the remedies for those concerns.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Ms. Norton. I would like to remind witnesses that the rules 
of the Committee on Government Reform require that all 
witnesses be administered an oath prior to testifying. I am 
pleased to recognize our first panel of witnesses, the 
Honorable Vincent Orange, Sr., who represents ward 5 and the 
Brentwood community--I see he has not come yet; Thomas Day, 
vice president for engineering, U.S. Postal Service; also 
Dennis Baca of the U.S. Postal Service, environmental engineer 
at Brentwood; Ted Gordon, senior deputy director for public 
health assurance, the D.C. Department of Health; also Dr. 
Vincent Nathan, assistant deputy director for the Environmental 
Health Administration; Peter LaPorte, D.C. emergency 
management; Dr. Rosemary K. Sokas, associate director of 
science, National Institute for Occupational Safety and Health, 
CDC; also Dr. Brad Perkins, chief of meningitis and special 
pathogen branch, division of bacteria and microbic diseases, 
National Center for Infectious Disease Centers at the CDC; 
Thomas Voltaggio, administrator, Environmental Protection 
Agency Region III; also Marcus Aquino, EPA onsite coordinator.
    I would ask the first panel of witnesses if you would stand 
and raise your right hands to take the oath.
    [Witnesses sworn.]
    Ms. Norton. Thank you very much. Let the record reflect 
that each witness answered this question in the affirmative. 
You may be seated.
    We would like to hear first from Mr. Thomas Day, vice 
president of engineering, U.S. Postal Service.

 STATEMENTS OF THOMAS DAY, VICE PRESIDENT OF ENGINEERING, U.S. 
 POSTAL SERVICE; TED GORDON, SENIOR DEPUTY DIRECTOR FOR PUBLIC 
 HEALTH ASSURANCE, DISTRICT OF COLUMBIA DEPARTMENT OF HEALTH; 
DR. ROSEMARY K. SOKAS, ASSOCIATE DIRECTOR FOR SCIENCE, NATIONAL 
   INSTITUTE FOR OCCUPATIONAL SAFETY AND HEALTH, CDC; THOMAS 
   VOLTAGGIO, ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY 
   REGION III; AND VINCENT B. ORANGE, WARD 5, COUNCIL OF THE 
                      DISTRICT OF COLUMBIA

    Mr. Day. Good morning, Congresswoman Norton. Thank you for 
this opportunity to speak to you. We look forward to talking 
about the cleanup efforts here at Brentwood, as well as our 
Hamilton processing center in New Jersey. Although he is not 
here, I would also like to thank Councilmember Orange for 
helping us to hold a community meeting in the past on this 
important issue.
    I do have a prepared statement that I am going to submit 
for the record, and as discussed with the staff, I will be 
making a brief presentation. Before I get into that, just let 
me briefly say a few words of thanks and praise to our own 
employees. We do share your concerns about our postal employees 
here at the Brentwood facility, as well as the surrounding 
communities.
    I think as everyone knows, in spite of the anthrax attack 
that took place in October, postal workers around the country 
continued to provide service and do their daily round to get 
the mail delivered. That was especially true in Manhattan, New 
Jersey, Connecticut and here in Washington. Every postal center 
around the country could have been part of that deadly attack, 
and those workers continued to do their jobs.
    We are particularly proud of the efforts of our employees 
here in Washington. Their determination and performance is 
truly outstanding. It is heroic and represents the very best in 
public service. So my personal thanks and praise to each and 
every employee of the Washington, DC, post office.
    Let me now begin my presentation. We began with the initial 
management decisions of the Postal Service going back to 
October. When we became aware of the severity of the situation 
on October 21, we did close and secure the Brentwood facility. 
We relocated workers to surrounding facilities and we began the 
actions to sanitize the facility.
    Congresswoman, as you mentioned, it is important that we 
use the very best and brightest that are available, and we have 
worked with various other Federal agencies listed on the 
chart--Health and Human Services, both the CDC and NIOSH. We 
have worked with the local official in the D.C. Department of 
Health, EPA, OSHA, Department of Defense, and particularly 
AFRRI--Armed Forces Radiobiological Research Institute. So we 
have reached out to get the very best experts we can.
    In terms of communicating with both the public and our 
employees, again thanks to Councilmember Orange, we did have a 
ward 5 community meeting on March 27. We conducted five 
employee town hall meetings in May. We held a further community 
update on June 27. It is all part of our ongoing commitment to 
the partnerships and working with community employees' unions 
and the leadership teams, particularly the ones set up here in 
the District.
    Let me get into a summary of our anthrax response at 
Brentwood. It is a very big picture--I do not want to get into 
the details. Again, the first thing we did was to seal the 
building. During the process that has gone on in the last 
several months, we have cleaned known hot spots. We have gone 
in there and gotten to the very hottest spots where the 
contamination occurred and gotten them cleaned up.
    The other thing we did was to get materials out of the 
building--basic materials like mail; also the equipment that we 
could remove from the facility was removed, decontaminated, and 
in the case of things like trays that letters are sorted into, 
they were decontaminated and then destroyed.
    In the same timeframe, we have also been working with 
companies that have been under contract now to install the gas 
treatment equipment itself. The next step, of course, that has 
been ongoing is to get everyone trained for that process. We 
are now at the final step, as was announced yesterday, we are 
doing a limited test on Monday to test this process to assure 
that the equipment works properly and does what we expect. We 
believe that will go quite well.
    Assuming it does go well, we will move forward to do the 
full treatment of the facility--the injection or the 
introduction of the chlorine dioxide gas to the facility, 
assuring that is dispersed throughout the building, held at the 
right concentration, temperature and humidity levels, and held 
there for 12 hours. That is the gold standard that was 
established at Hart. We are following the same standard that 
was followed at the Hart Building.
    To be sure that process works as we intend, there is an 
extensive post-treatment testing procedure we will follow. This 
probably has been one of the critical issues we have worked 
with the local District officials on is to determine the extent 
of the testing that should be done in the facility, how many 
and where, to be sure that when the treatment is done, it has 
been effective.
    We have come up with a plan that we believe is 
scientifically valid and will truly indicate that the facility 
has been cleaned. To be clear, if those tests come back with 
anything other than 100 percent killed, then the fumigation 
will not be deemed effective and we will do it again.
    Also, to point out that after the gas is introduced to the 
building, the other part of the process after the 12-hour 
period is to withdraw the gas, scrub it or neutralize it so 
that what you are left with are harmless byproducts, 
essentially salt and water. When we do get that final 
certification from the D.C. health officials that the building 
is clean, we will then begin the process to get the Brentwood 
facility reactivated and back into use.
    What you see before you now is a floor plan of Brentwood. 
The red dots are where we have tested throughout the facility 
and found hot spots. Just to emphasize, we have focused on some 
of those key hot spots. One that I think many people are aware 
of is the machine, DBCS-17, that is a delivery bar code 
sorter----
    Ms. Norton. Could you define ``hot spots''? Does that mean 
anthrax is there?
    Mr. Day. Anthrax positive, yes.
    DBCS-17 was where the mail was first sorted. You can see 
the cluster of positives that came up there. And of course, 
this was government mail, so our government mail section in the 
building also had numerous hot spots. But you can see that they 
are dispersed throughout the facility--just to emphasize, that 
is the need to fumigate the entire facility. A critical aspect 
of this treatment is not just that we decontaminate the 
interior of the building, but that while this treatment process 
is going on, that we need to monitor the air outside the 
building to be assured that none of the chlorine dioxide gas is 
escaping.
    Now, not only are we doing the monitoring, but what has 
been a major activity that has gone on is the contractors have 
spent months sealing every potential escape point in the 
building. I will show you some pictures very quickly of what 
that means. Further, before we introduce actual chlorine 
dioxide, we are going to test that by injecting a neutral 
substance into the building to make sure nothing is escaping. 
But further, when the actual treatment is going on, we will do 
air monitoring.
    This chart you see depicts the radius around the building 
where we will do that. In addition as was done at the Hart 
Building, we will use what EPA calls the TAGA bus that will do 
mobile air monitoring around the facility. We have set an 
extremely low threshold, well below any level of harmful 
effect, that could potentially cause a problem. If we detect 
even at that very low threshold, we will shut down the process. 
We will do continuous air monitoring throughout the treatment.
    Again, let me just go through some pictures to give you 
some visual ideas on what is going on. This is the actual 
chlorine dioxide distribution system. This is actually 
Brentwood itself. It has been assembled on the south side. This 
is the equipment that is also, then, on the north side of the 
building. An idea of what we have done in the interim, early on 
in the process when we first closed down the building, we did 
it on very quick notice, obviously. There was a great deal of 
mail that was inside the facility.
    This is what was on the platform when we shut down the 
building. We have gotten the mail out of there, irradiated it, 
decontaminated it, as well as the equipment you see there. What 
you find now is that the platform is an open area. Two things--
one, we have decontaminated all those things that were in 
there; and second, what it has done for us is it gives you a 
much more open area to fumigate.
    Also what has gone on, when I talked earlier about the hot 
spots where the anthrax was found, this is the kind of spot 
cleanup that we have conducted on the individual pieces of 
automated equipment. We get right into the machine itself. It 
is not just a surface cleaning of the exterior.
    In sealing the building, what this picture shows you, where 
you have got different things that enter in--pipes, electrical, 
plumbing, whatever around it--the image on the right shows you 
that even within electrical conduit, you go inside there and 
seal that up. You can understand, however, that this is a 
complex process to seal the building. This is a depiction of 
all the skylights that are on the roof. We have also had to 
seal doors, windows, and the platform docks.
    In terms of other cleanup, we have gotten into the ceilings 
and rafters to clean those up with spot cleanup. On a daily 
basis to assure everyone that as these workers to in and do 
this cleanup, there is a control zone where they enter through 
and before they come back out of the building, they go through 
a decontamination area. This is a process that takes place 
virtually on a daily basis.
    The bottom line, and to summarize ongoing actions of the 
Postal Service, we are introducing other safeguards to our 
entire system. Two basic things we are doing is that we are 
working to validate a bio-detection system--a test that is 
going on right now in Baltimore. Our intent is that system, 
when validated, and it looks very good that it will be, that we 
will deploy that nationwide and it will be capable of examining 
a full range of biological threats, and then the other thing we 
will do is vacuuming and filtration systems to protect out 
employees.
    We have decontaminated the mail from both Trenton and 
Brentwood with irradiation. We have worked on emergency 
response plans. The bottom line is we have gotten back to the 
process of getting mailed delivered on a daily basis and doing 
it quite effectively. We want to open the Brentwood facility as 
soon as possible, but we will only do it when we are absolutely 
sure that it is safe and we are ready to go back in there.
    [The prepared statement of Mr. Day follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Norton. Thank you very much, Mr. Day.
    Mr. Ted Gordon--Dr. Gordon I guess it is--senior deputy 
director of public health assurance, D.C. Department of Health.
    Mr. Gordon. Good morning, Congresswoman Norton.
    I am Theodore Gordon, senior deputy director for public 
health assurance for the District of Columbia Department of 
Health. I am representing Mr. James A. Buford, the acting 
director of the department who is unable to be here today. I am 
also joined by Dr. Vincent Nathan, the assistant deputy 
director for environmental health science, the Environmental 
Health Administration.
    I would like to thank you for the opportunity to present 
testimony to the subcommittee this morning on the department's 
role and its responsibilities in an effort to decontaminate and 
reopen the Brentwood Road mail processing and distribution 
facility located at 900 Brentwood Road, NE, in the District of 
Columbia.
    Last year between October 19 and October 21, four workers 
at the Brentwood facility were hospitalized with inhalation 
anthrax. Two of those workers subsequently died. It is a tragic 
loss to the District of Columbia, and our most sincere 
condolences go out to the families of the victims.
    The U.S. Postal Service and the Department of Health's 
investigations have thus far determined that the letter 
delivered to the Hart Senate Office Building from the Brentwood 
Road postal facility contained bacillus anthracis spores, thus 
contaminating both buildings. As a result, the Brentwood 
facility was closed on October 21, 2001.
    It has become necessary to decontaminate the facility, 
particularly if the facility is to reopen. The Environmental 
Health Administration is responsible for identifying and 
assessing environmental issues and problems, particularly those 
linked to disease, dysfunction and premature deaths. In the 
decontamination of Brentwood postal facility, the Environmental 
Health Administration is primarily responsible for regulatory 
oversight and protecting the health and safety of the 
community.
    The U.S. Postal Service is using chlorine dioxide 
fumigation to decontaminate the Brentwood facility, as was used 
to decontaminate the Hart Senate Office Building. However, this 
is the largest chlorine dioxide fumigation ever undertaken in 
the United States and possibly the world. The processing has 
three steps--one, pre-fumigation planning; two, chlorine 
dioxide fumigation; and three, post-fumigation cleaning and 
reoccupancy.
    To ensure that the District's oversight and monitoring of 
this effort is carried our successfully, the mayor has 
assembled the Brentwood Scientific Advisory Panel charged with 
responsibility for reviewing all documents related to the 
decontamination activities at the site, and to include the 
following--assisting in the development of public information 
fact sheets and media releases; sampling protocols, air 
sampling protocols; waste disposal plans; final clearance 
determinations; reopening determination; and final reports.
    The panel includes distinguished scientists in the field of 
microbiology, engineering, medicine, epidemiology, chemistry, 
toxicology and environmental health; and also members of the 
postal union and ward 5 community, Councilmember Vincent 
Orange, which encompasses the Brentwood facility.
    We have participated in several community meetings to keep 
residents informed of the status of the decontamination 
process. There is nothing more important to the department than 
to protect the health of the District residents. The top 
technical issues of concern to the Department of Health has 
been from the beginning, one, protecting the community through 
the containment of chlorine dioxide gas; two, anthrax 
decontamination effectiveness; three, anthrax wall cavity 
sampling; four, proper chlorine dioxide dose; five, post-
fumigation anthrax sampling protocols; and six, shut-down 
authority and reoccupancy clearance.
    In this regard, the Department of Health has reviewed, 
along with the National Institutes for Occupational Safety and 
Health, the Centers for Disease Control and Prevention, the 
Environmental Protection Agency, the Occupational Safety and 
Health Administration, and the Armed Forces Radiobiology 
Research Institute, all results from the sampling and analysis 
plan, the wall cavity sampling and demonstration plan, the 
ambient air monitoring plan, the site-specific health and 
safety plan, the line 17 fumigation remedial action plan, and 
the negative pressure testing plan.
    The Department of Health continues to review all plans 
presented to us to provide advice to the U.S. Public Health 
Service on sound public health science. The Department of 
Health has reviewed and advised the U.S. Public Health Service 
on the dispersion modeling plan for the facility and has issued 
several permits for testing and operation of boilers, air-
handling units, and negative air pressure systems.
    The Department of Health will be onsite during all phases 
of the process, which will include the presence of EPA's TAGA 
bus, which will be on the mobile or monitoring unit. The U.S. 
Environmental Protection Agency and the Department of Health 
have consulted on the issuance of a Federal crisis exemption 
permit for the use of chlorine dioxide gas for the fumigation. 
The District has issued individual licenses to all onsite 
applicators who will be handling the gas.
    Finally, the Department of Health co-chairs, along with the 
U.S. Environmental Protection Agency, Region III, the 
Environmental Clearance Committee. The Environmental Clearance 
Committee is an independent coordinated group of scientists 
with expertise in disciplines relevant to the assessment and 
cleanup of the facility, but independent of the U.S. Postal 
Service.
    It serves as the committee charged with evaluating the 
effectiveness of the facility decontamination, post-fumigation 
measures, and the group will then make a recommendation on the 
appropriateness of reopening the facility. I might add, 
Councilmember Vincent Orange will serve on the clearance 
committee, as well as the two representatives from the postal 
unions who represent the postal workers.
    That concludes my testimony. Congresswoman Norton, I am 
prepared to answer any questions you may have concerning the 
work of the department on behalf of the Department of Health.
    [The prepared statement of Mr. Gordon follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. Thank you, Dr. Gordon.
    Dr. Rosemary Sokas, associate director for science, 
National Institute of Occupational Safety and Health at CDC.
    Dr. Sokas. Thank you, Madam Congresswoman and members of 
the subcommittee. I want to just start off by saying that NIOSH 
is part of CDC. We deal with worker safety and health. I am 
also happy to say that we have Dr. Brad Perkins here, who is 
from Atlanta; chief, as you know, of the special pathogens 
branch in the CDC's National Center for Infectious Diseases.
    On behalf of the CDC and the Agency for Toxic Substances 
and Disease Registry, I am pleased to describer out role in 
cleanup and safety-related activities at the Brentwood Mail 
Processing and Distribution Center in Washington, DC. The CDC 
and ATSDR are a part of the Department of Health and Human 
Services.
    It is out mission to protect the public's health by 
preventing and controlling injuries, illnesses and 
disabilities, including those that occur from the deliberate 
release of biological agents. Today, I will review CDC and 
ATSDR's response activities at the Brentwood facility following 
last year's anthrax attacks, describe our role in the cleanup 
work being conducted at Brentwood, and discuss safety issues 
involved with the decontamination and reopening of the 
building.
    Among the many responsibilities following the anthrax 
attacks of last fall, CDC and ATSDR have been working closely 
with our Federal, State and local public health partners toward 
the goal of successfully remediating the buildings contaminated 
by the anthrax spores. Our recommendations have been widely 
disseminated to Federal, State and local health and 
environmental agencies and are available at CDC's bioterrorism 
Web site. Our review of the lessons learned from these 
activities is ongoing and will be used to update our 
recommendations for responding to anthrax contamination.
    Of the buildings contaminated from the anthrax attacks last 
fall, the Brentwood facility was the most severely affected. As 
you all know, during October 19 through 21, four postal workers 
from Brentwood were hospitalized with inhalational anthrax, and 
two of these patients died as a result of their exposure. What 
became all too clear was that the letters containing anthrax 
spores which were sent to Senators Daschle and Leahy in the 
Hart Senate Office Building had also contaminated the Brentwood 
facility, which processed mail addressed to zip codes in the 
Washington, DC, area.
    The anthrax-contaminated letters passed through the 
Brentwood facility on the morning of Friday, October 12, 2001. 
The Brentwood facility was closed Sunday, October 21, when the 
first diagnosis of inhalational anthrax in a Brentwood employee 
was made. Beginning Monday, October 22, investigators from CDC, 
the U.S. Postal Service and a postal service contractor began 
evaluating the extent of anthrax contamination there.
    This first investigation showed widespread contamination 
inside the facility, particularly around delivery bar code 
sorter No. 17, which you have already heard. That was the one 
that had processed the spore-containing letters. It also showed 
heavy contamination as you saw on the graph in the government 
mail area.
    During subsequent investigations, CDC, ATSDR, the Postal 
Service and a postal service contractor conducted additional 
surface samplings in the facility to thoroughly characterize 
the distribution of the anthrax spores throughout the facility, 
including areas where workers did not become ill and including 
the building ventilation system. The broader goals of this 
effort were to compare and evaluate the different methods of 
collecting the surface samples and for analyzing those samples 
and to evaluate the effectiveness of cleanup efforts to remove 
spores from the known contaminated surfaces.
    The results of this investigation were shared with the 
workers from the Brentwood facility with Postal Service 
management, the postal worker unions and the District of 
Columbia Department of Health. This information has been 
presented in scientific conferences and incorporated into our 
recommendations, improving our national capacity for present 
and future responses to anthrax.
    Since the completion of that investigation, CDC and ATSDR 
scientists have been working with experts from EPA, the D.C. 
Department of Health, the Postal Service, the Department of 
Defense and the Occupational Safety and Health Administration 
to review and provide input into the draft cleanup plans. The 
goal is to provide the Postal Service and the Brentwood 
incident commander and his team of consultants with the advice 
they need to ensure that the cleanup plans incorporate the best 
available protection for each worker and for each member of the 
community. These plans address issues such as the strategies 
for environmental remediation of the facility, the type of 
environmental sampling needed to evaluate the effectiveness of 
remediation, and measures to ensure that workers and the 
general public are protected during cleanup operations.
    In addition, we currently are in discussion with the Postal 
Service about the quality assurance role we will play in 
conducting laboratory analysis of post-cleanup environmental 
samples collected from the Brentwood facility. The D.C. 
Department of Health and EPA are leading a multi-agency panel 
that will review the post-cleanup sampling data from Brentwood 
and advise when it is appropriate to reoccupy the building and 
return it to normal service.
    We participate in this panel. To best protect the workers 
who will reoccupy the facility, decisions need to be based on 
the highest quality data that reflect site-specific findings, 
using the best and most current science and sampling methods. 
That sampling must be thoroughly and rigorously conducted and 
techniques used for sample collection and for cleanup should be 
those shown to be valid and effective. As with the Hart 
Building cleanup, the standard for determining that the 
building is clean should be that samples collected after 
cleanup showed zero detectable anthrax spores.
    As with any other public health problem, it is the goal of 
the CDC to use the best science and technology available to 
minimize the risk of illness and disease to the greatest extent 
possible. It is not possible to eliminate risk entirely or to 
guarantee that a building is absolutely free of risk. But as 
with the successful reoccupancy of the Hart Building, we 
believe that a science-based process can allow workers to 
safely return to Brentwood and normal service to the building 
to safely resume.
    CDC is working with the local health department to take 
other steps at the Brentwood facility such as investigating 
deaths that have occurred over the past 9 months among Postal 
Service employees to determine if there have been more deaths 
than usual or any suspicious deaths that might be related to 
anthrax. Our investigations have not found any factors 
different from what would be expected during a typical year. We 
plan to issue an updated version of this report in the next 
several weeks.
    Thank you, and I would be glad to answer any questions that 
you have.
    [The prepared statement of Dr. Sokas follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. Thank you very much, Dr. Sokas.
    Administrator Thomas Voltaggio, Environmental Protection 
Agency, Region III.
    Mr. Voltaggio. Good morning, Congresswoman Norton.
    I am Thomas Voltaggio. I am the deputy regional 
administrator of the mid-Atlantic regional office of EPA. I 
also have been the senior regional manager of the EPA workers 
who had decontaminated the Hart Senate Office Building. I spent 
roughly 3 or 4 days a week for about 3 months there, 
implementing what I am gratified to learn has been called the 
``gold standard.''
    With me is Marcus Aquino, who is our EPA regional onsite 
coordinator at the Brentwood site. We are happy to be here. In 
today's testimony, I will outline EPA's role in the Brentwood 
cleanup operations. I will provide a short description of the 
current activities at Brentwood.
    EPA's responsibilities can be divided into four categories: 
one, an independent authority that is responsible for 
protection of human health and the environment outside the 
facility; No. 2, regulator of chemicals used to kill anthrax 
spores; No. 3, a technical adviser to the U.S. Postal Service 
for the remediation inside the building; and fourth, the 
Federal entity that has the authority and resources to step in 
at any time that the neighborhood is threatened.
    EPA is the national organization whose primary mission is 
the protection of human health and the environment. We are 
responsible, often in partnership with our State counterparts 
and the District in this case, for protecting the air, water 
and the lands. Although the anthrax contamination at the 
Brentwood postal facility is currently well-contained, we 
continue to monitor the situation there closely to ensure that 
the neighborhood is safe.
    That means we are paying close attention to the proposed 
cleanup remedy in the building, while at the same time we are 
making sure the chemicals that are used to destroy the anthrax 
spores are handled properly, and any waste products produced 
during the cleanup operations are disposed of properly.
    All pesticides used in the United States must be registered 
with EPA. We make sure that the products work effectively and 
when properly used pose no undue risk. Not surprisingly, here 
are no chemicals that have been registered to treat anthrax 
spores. Anyone that needs to clean an anthrax-contaminated site 
must get what is known as a crisis exemption from EPA. As an 
example, a crisis exemption was issued to use chlorine dioxide 
gas to fumigate the Daschle office suite in the Hart Senate 
Office Building. The Postal Service owns the Brentwood 
facility, and it is in charge of the anthrax remediation there.
    That means that aside from the regulatory function I just 
outlined, EPA's role inside the fence line is to provide expert 
advice on the many technical issues involved in the cleanup. If 
at any time, however, EPA believes that there is an immediate 
public health or environmental threat that is not being 
appropriately handled by the Postal Service, then we can employ 
our powers as described in the national contingency plan to 
abate any such threat.
    EPA has provided technical consultation about anthrax 
decontamination at the request of several Federal agencies 
ranging from GSA to the State Department, and privately owned 
facilities from Florida to New York, as well as the Postal 
Service facilities in seven States and the District. The 
largest anthrax cleanup has been on Capitol Hill, where the 
contaminated letters that went through Brentwood were directed.
    The cleanup of the Hart Senate Office Building posed the 
largest anthrax cleanup challenge ever undertaken in a building 
thus far. Fumigations with chlorine dioxide gas were conducted 
on December 1 and December 30, 2001. More than 3,000 test 
samples taken after the cleanup showed no remaining viable 
anthrax. On January 22, the Hart Building was reopened. 
Hundreds of employees and thousands of visitors have safely 
used the facility since then, and no one has become ill from 
any anthrax-related exposure.
    It was at the trailer at the closed Brentwood plant that 
EPA scientists demonstrated last fall that chlorine dioxide gas 
would kill weapons-grade anthrax. Chlorine dioxide is a common 
disinfectant. It is used in the water spray that moistens 
fruits and vegetables on grocery shelves. It kills germs on 
contact, yet leaves no hazardous residue. Chlorine dioxide is 
the primary disinfectant used to purify water in cities like 
Los Angeles. It was used at the Hart Senate Office Building and 
is about to be used at Brentwood.
    Last October, EPA Federal on-scene coordinator Marcus 
Aquino was dispatched to Brentwood from our regional emergency 
operations center in Philadelphia. Over the past 9 months, Mr. 
Aquino has been giving advice on subjects ranging from sampling 
methods, various cleanup technologies and their effectiveness, 
ways to ensure the building was properly sealed to prevent the 
escape of anthrax spores, and safety protocols for hazardous 
materials cleanup personnel. As an on-scene coordinator, Mr. 
Aquino is highly trained in hazardous materials cleanup 
procedures.
    Even more importantly, however, he has the full resources 
of the EPA and the entire national response team behind him. 
That means that all the expertise and invaluable experience of 
all the groups associated with the national anthrax cleanup 
efforts are contributing to the Brentwood effort.
    At Brentwood, EPA has issued a crisis exemption to use 
chlorine dioxide gas to conduct a test fumigation of lockers in 
the trailer. A second exemption has just been approved to 
fumigate delivery bar code sorters 16 to 18, better known as 
line 17, which are the most highly contaminated mail sorting 
machines.
    A third crisis exemption request will be needed before they 
fumigate the entire building with chlorine dioxide. For the 
fumigation of line 17, EPA brought together a group of experts 
from the relevant Federal health research and regulatory 
agencies to review the plan which led to a number of revisions. 
This group will also review the results of the fumigation of 
line 17 prior to the fumigation of the entire building.
    During the fumigations of the Brentwood facility, EPA is 
bringing its state-of-the-art mobile air monitoring equipment 
to the site. The TAGA bus, which is the trace atmospheric gas 
analyzer bus, will drive around the building during the 
fumigation, sniffing out any chlorine dioxide in the unlikely 
event that some might escape from the building.
    If as little as 25 ppb--that is ``b'' for billion--are 
detected, an investigation will immediately be triggered. If it 
rises to 100 ppb, the fumigation effort would be shut down. 
This is the same conservative level that is used to protect 
people who work with chlorine dioxide routinely, one that is 
considered safe, and that was used at the Hart Senate Office 
Building.
    EPA and the D.C. Department of Health have established the 
Brentwood Environmental Clearance Committee, an independent 
group of scientists who will review the results of all the 
fumigations. This group will make recommendations on whether 
the facility should be cleared for reoccupancy by postal 
workers. The first meeting is set for next month.
    In conclusion, EPA believes that the Brentwood cleanup 
effort is moving in the right direction. We will continue to 
provide technical assistance to the Postal Service, but 
ultimately we recognize that the health and safety of the 
citizens who live in the Brentwood neighborhood are our 
responsibility. I want to ensure the subcommittee, and most 
importantly the people who live in the community, that EPA will 
continue to provide vigilant oversight of the cleanup 
operations. Your health and safety are our primary 
considerations.
    I would also like to again acknowledge the work of the 
other organizations that are involved in the cleanup effort--
the Postal Service, the District of Columbia's Department of 
Health and its emergency management agency, the national health 
agencies, especially CDC. They deserve special praise.
    Thank you for the opportunity to testify. I will be happy 
to answer any questions at the appropriate time.
    [The prepared statement of Mr. Voltaggio follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. Thank you Mr. Voltaggio.
    Councilman Orange, you were not here when I swore in the 
witnesses. I must ask you to stand therefore to be sworn in.
    [Witness sworn.]
    Ms. Norton. Thank you. Let the record show that Mr. Orange 
answered the question in the affirmative. You may be seated. We 
will be pleased to hear your testimony at this time.
    Mr. Orange. Thank you very much.
    Good morning, Congresswoman Norton and distinguished 
members of the subcommittee. I am Vincent Bernard Orange, Sr., 
the District of Columbia councilmember representing ward 5. I 
am also the chairman of the D.C. Committee on Government 
Operations.
    I welcome the opportunity to appear before you today to 
comment on the Brentwood Road mail handling and processing 
facility cleanup. As you know, this cleanup represents the 
largest chlorine dioxide fumigation ever undertaken in the 
United States and perhaps the world. Thus, as you might 
imagine, the residents and businesses of ward 5 where the 
Brentwood facility is located and I are extremely concerned 
about this operation.
    We believe that the ultimate goal is the safety of the 
residents and the employees of the facility and the full 
disclosure as to all phases of the cleanup operation. This goal 
was articulated loud and clear on March 27, 2002 at the first 
town hall meeting hosted by me with respect to the cleanup. 
Over 800 people were in attendance.
    The consensus of the meeting was that the safety of the 
residents and the employees of the Brentwood facility was first 
and foremost. The residents expressed skepticism with the 
Federal Government in their overall approach to the cleanup and 
the accurate disclosure of information.
    We certainly have tried to create a sense of trust and 
cooperation with the Federal Government, in particular the U.S. 
Postal Service who is in charge of this operation. We also 
recognize, however, that the U.S. Postal Service authority is 
not absolute. It has checks and balances and can be overridden 
by the Environmental Protection Agency if certain conditions 
were to exist. On June 27, the U.S. Postal Service held a town 
hall meeting to respond to community concerns and to present an 
overview of their plan of operation. We appreciate the efforts 
that have been made to date.
    However, we are here today to demand strict adherence to 
the 72-hour notification to the public on any test runs of 
fumigation and actual fumigation of the 17.5 cubic feet 
facility in our community. Many residents have made it clear 
that they do not wish to be present in the ward or the District 
of Columbia during the cleanup operation. We would also like to 
know the inventory of chemicals presently located in the ward 
for the operation.
    It is our understanding that the chemicals will be mixed to 
form chlorine dioxide gas to be pumped into the Brentwood post 
office for the decontamination process. The question is, how 
much chlorine dioxide will be onsite? Will it be in excess of 
the 20,000 tons as reported in the Washington Post, or the 
2,000 pounds that has been reported over the past few weeks? 
Are these chemicals being brought into the ward under D.C. 
police and Federal police protection?
    We are told that the current cleanup plan calls for no 
evacuation. What is the contingency plan for evacuation? The 
perimeter for the cleanup is .16 miles. Thus, Home Depot, 
McDonald's, BET, etc., can still operate and street traffic can 
still flow during the cleanup.
    However, if it is determined that the chlorine dioxide 
fumigations is escaping the Brentwood facility, how will the 
businesses, customers and residents be notified in a timely 
fashion? Also, Ted Gordon, who is the senior director for the 
Department of Health, made a good point yesterday. From the 
perspective of the Department of Health and from the sciences, 
it is clearly determined that the operation that has been put 
in place is sufficient.
    But when you look at it from a community perspective and 
you look at it from a public safety perspective, we need to 
ascertain whether or not Brentwood Road should be shut down 
during the actual fumigation process.
    Clearly, the operation as I understand it would probably 
take no more than 24 hours if everything was to go properly, so 
a 24-hour shut-down of Brentwood Road just to make sure that we 
do not have customers in the area if anything goes wrong, that 
we will not have to deal with all the traffic that is coming 
off of New York Avenue or Rhode Island Avenue into that 
particular area. So that would be strictly from a public safety 
community perspective, but I understand from the Department of 
Health and from the science perspective that the plan that has 
been placed on the table is sufficient as well.
    We have been informed that a chlorine dioxide fumigation to 
decontaminate line 17 where the two postal workers who lost 
their lives worked will take place on Monday, July 29. How will 
the results be analyzed? By whom? And when will the results of 
the test run be reported to the public?
    The reporting of the success or failure of this test must 
be in advance of the actual full-scale chlorine dioxide 
fumigation process. We have been told that it may take 5 to 7 
days to actually get the results back. It may take another 2 
weeks to actually analyze those results.
    So looking at that timeframe, we could possibly be into the 
end of August, early September before actual fumigation 
process, and clearly I would think that would be unacceptable 
because now we are into the school year, and to more 
individuals actually being in the community. There is a school 
right down the street at Brentwood Elementary School, where 
noise and school is also utilizing that facility as well.
    So we are hopeful that we will be able to speed up the 
analysis of the test on Monday, and get those results back a 
lot sooner and be able to actually start this process somewhere 
in the middle of August, so we could have this all put to bed 
by September.
    Finally, information is needed on public information fact 
sheets, daily updates and media releases, radio-broadcast 
media. Where will the public information center be located? 
When will the daily updates take place? Is there a Web site for 
immediate updates? Is there an 800 number to call for 
emergencies? All this information I believe is in place, but it 
needs to be broadcast widely so everyone is aware that this is 
how they can make contact with this particular operation.
    I believe I have provided enough insight into the thinking 
of the ward 5 community, the local elected D.C. officials, and 
the city as a whole on the subject matter for this subcommittee 
to take the lead in ensuring the safety and integrity of the 
cleanup process. The old saying that anything that can go 
wrong, will go wrong--are we prepared? At what confidence level 
can the Federal Government answer this question--are we 
prepared? Are adequate contingency plans in place?
    I end my testimony by praying that God leads us and guides 
us through this process without harm to our residents, 
businesses, community and the many workers on this cleanup 
process.
    Thank you very much for allowing me the opportunity to 
testify before this subcommittee this morning.
    [The prepared statement of Mr. Orange follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. Thank you very much, Councilmember Orange.
    I want to proceed with questions. I am compelled to proceed 
from the remaining, the leftover concerns about health before 
we get to the new concerns that are arising with respect to 
decontamination and to health inside the community. I should 
preface this by saying I have absolutely no compunctions about 
going in Hart. I do not even think about it any longer.
    So I have to say that going into a building as I do 
regularly that was a building where the deadly envelope was 
opened, has not bothered me. I have confidence in what was 
done--so much confidence that I do not think that those--not 
only do I not think about it when I go into Hart, which is 
fairly often, but I think that those who go in Hart each and 
every day no longer think about it. That gives me some 
confidence that we can put this behind us.
    But there is a great difference between Hart and Brentwood. 
Nobody lost his or her life at Hart. Nobody has complained of 
being ill in Hart--at least not that I know of and not that 
anyone in the Congress has been informed of.
    But not long ago, indeed this very month, people woke up to 
read in the paper an article concerning continuing effects from 
Brentwood that I must say surprised me, particularly given what 
I have just told you about Hart. Essentially what this article 
says, and one of the reasons I wanted this hearing to be held, 
is that people cannot rely upon what they read in the newspaper 
for their health. This is an official hearing where we are 
trying to find out what exactly we know and what can be done 
about it.
    Here comes an article in the Washington Times on July 19--
``Anthrax Ailments Linger in Some, Recovery Could Require 
Years.'' Dr. Sokas, you have testified about the toxicity. I 
think that was a very wise thing to do. You all clearly are to 
some degree following these workers trying to respond to 
concerns.
    But here is a newspaper article where the quotes are from 
doctors who have--and here I am going to use some of the 
language from the article--they have documented the symptoms in 
a postal inspector from the Brentwood facility in northeast who 
handled anthrax spores mailed to Members of Congress in 
October. However, blood tests on the man failed to detect 
anthrax.
    Now we learn, again in this article--I want to hear from 
the experts--we learn that 60 people seen at Sinai Hospital who 
were in the Brentwood facility, who processed mail there or 
worked there, that at least six of them showed some signs of 
illness. These are reports from their doctors, and their 
doctors are listed here. Again, the Sinai Hospital doctors 
found, and here I am quoting from the article, ``previously 
unreported symptoms of fluid buildup around the heart, hormone 
shifts'' and so forth.
    The reason I think we are taking this seriously is we 
really do not know enough about anthrax. Clearly, from what we 
have learned, I think, unless I hear differently from you, to 
be terribly definitive about this substance. One doctor says, 
basically, I have got one patient who is sick and we cannot 
explain why he is sick.
    Then, of course, a large proportion of folks believe they 
are suffering from the effects of anthrax. The fact is that I 
recognize that when there has been a major problem in a 
facility there will be people who believe no matter what you 
tell them that it really had to have been that. That is why I 
am going to ask you the following. Leave aside the people who 
cannot be convinced.
    The fact is that the average person it seems to me can be 
convinced by scientific studies and the scientific method 
lives. I certainly am a subscriber to the scientific method. I 
do not believe in conspiracies. I believe that conspiracy 
theories will drive people out of this wonderful community. I 
believe one does a disservice if one spreads rumors that I know 
they must--do not believe what they tell you.
    But I also know that there is no way to counter this kind 
of rumor and conjecture except by coming forward with 
definitive information so far as you have it, that people can 
look to as a basis for comparison. When you find that your next 
door neighbor is having symptoms that the doctor says you never 
had before, even though you had regular checkups, and you were 
in Brentwood, then you are going to believe your next door 
neighbor and his doctor, rather than the generic assurances 
from the experts and from the Postal Service that things are 
going to be all right.
    That is why I am asking you if--and her I suppose this is 
directed to Dr. Sokas--if you would be willing to do an 
epidemiological study that would take this population of 
workers and residents who entered the facility and live near 
the city, and compare them to a comparable group of workers in 
a post office environment and residents who use that post 
office, as one way, and I am open to your suggestions as to 
other ways, and this is certainly consistent with the 
scientific method as I know it, as one way to reassure 
residents; or in the alternative, if we find differences, to 
lead us to new studies so that we can protect the health of 
these workers and these residents.
    Dr. Sokas. Congresswoman Norton, we can today assure you 
that we will discuss this with the director of CDC and respond 
to you in a more complete fashion. I believe we have already in 
place enough infrastructure to allow the kind of a study that 
you are describing to happen to take place without much 
difficulty.
    But obviously, we would have to pull together the experts 
from the National Center for Infectious Diseases, as well as 
from the leadership of CDC. I would ask your staff to let us 
know who you would like to be involved with the discussion of 
that kind of work, and certainly we would bring in the other 
agencies, as well as unions, who would be involved. But we will 
commit to developing a proposal and then sharing it.
    Ms. Norton. I very much appreciate that. I would ask the 
chair when she and I can get together to have a preliminary 
meeting with the appropriate actors so that the kind of study 
that I think this kind of event deserves can be done. Of 
course, I ask it in light of the fact that we know still so 
little about anthrax, that to say that there will be no after 
effects is perhaps to say what we cannot stand behind.
    Dr. Sokas. Right. Congresswoman, I would like to say that 
in addition to the head of CDC, obviously the Secretary for 
Health and Human Services would be involved with the decision 
on how that should proceed. I also would like to say that again 
we clearly did not know what we did not know last October, and 
that is the cardinal sin that resulted in tragic deaths. And so 
we are very careful about what we say now in the future.
    We did learn, however, that every piece of information that 
came in over the fall taught us that what was different about 
this was the behavior of the spores; that they had clearly been 
treated; that they clearly were much more readily dispersed 
into the air than the naturally occurring spores that had been 
studied for years.
    Ms. Norton. Well, just a followup on that, the notion of 
what kind of hypotheses to develop is going to be very 
important. The fact is if somebody sends something through the 
mail, it apparently did not occur to the CDC that they were 
sending cow spores. I mean, they were sending military-grade 
spores. They meant to do harm. And if you had in fact 
hypothesized that these were military-grade, then of course you 
might have looked at Brentwood and not simply opened it, 
because then of course the notion of its dispersing would have 
been more apparent.
    I have the greatest respect for CDC for your own work, Dr. 
Sokas, and for American science, frankly. It is because I so 
believe in science that I would like the best science to be 
developed here so that residents can have the state-of-the-art 
science. Look, if there is stuff that nobody knew, we are not 
God.
    But to the extent that mortals can in fact assure us that 
those who have been exposed are not in danger, then people will 
come back into this facility in a way that people may be 
reluctant to do now. I mean, members of the community, you 
might imagine--I speak about Hart, but Hart was not closed for 
almost a year.
    Members of the community see this as a kind of giant tomb, 
and you wonder if you want to walk into that place which was so 
much larger than Hart, and for which there is no precedent for 
cleanup. Again, I think this can be overcome, but I think we 
have to go the extra mile and be terribly proactive in trying 
to do so.
    I would like to ask about time. I am not a critic of the 
fact that it has taken too long. I do not think people would 
have wanted to go in very soon anyway. So I do not say, why 
don't you do it fast. In fact, I say do it slow, just do it 
right.
    But I think we have--we need some sense of what, at least 
roughly, a time line would be, assuming a go on the 
decontamination test you are about to do. How long after that 
go would we get to total decontamination? And according to what 
you know now, how long would decontamination take? Bear in 
mind, Mr. Voltaggio, that even at Hart, because you had never 
done this before, you had to do it more than once because you 
went in and you found that in fact there was still some 
contamination there.
    So I can only ask for your best sense at this time, and I 
understand that nobody can hold you to what no human being 
knows at this time, but I think we have a right to know. Do we 
imagine that this facility will open, for example, in the year 
2003 at all? Are we in for some terribly long-term matter where 
Councilmember Orange has to prepare his community for a long 
period of time to wait and therefore perhaps to have the 
experts come back time and again? What is your best sense of 
the steps and how long the steps will take? Is this Dr. Gordon 
or Mr. Day? I do not know which of you have the best sense of 
that.
    Mr. Day. Congresswoman, I can at least start with the 
answer. I would agree with you to say up front that we are 
willing to sacrifice time in order to do this not only safely, 
but with full coordination and notification not only amongst 
agencies, but with the public as well. The tests that will take 
place on Monday really defines how quickly we move forward. 
Let's be optimistic.
    We think everything that we have done to get ready for that 
test that it will be successful, as quickly, and I would agree 
with Councilman Orange, anything we can do to expedite the 
return of those results and the analysis of the results we 
certainly are interested in doing.
    I believe, again assuming success of that test, that we are 
within weeks of being able to do the first full fumigation of 
the building. Now, it is 17 million cubic feet. The caution I 
would say, as occurred in the Hart Building on a smaller scale, 
I do not think we can necessarily assume that the very first 
time we attempt that fumigation that we absolutely with 
certainty can say that is it, we will just have to do it once. 
So the fact that we can begin it in weeks hopefully does not 
necessarily mean it is then finished very quickly.
    Even when the fumigation is completed, it will then--let me 
go back a step because the intervening step between successful 
results from next week's test and beginning the fumigation 
process, again hopefully weeks, are two key issues.
    One, we are committed to do a community meeting before we 
conduct a fumigation, to once and for all clearly outline the 
procedures in terms of any notification that would be required, 
what are the emergency procedures--make clear to the public and 
answer any final questions, and then as agreed, do the final 
72-hour notice before the fumigation would begin. So those are 
other steps that would precede the actual fumigation. Then 
there is the treatment, or the testing that we would have to 
wait for results.
    Finally, I would say in terms of when the building actually 
opens, when we reach that point in time, and I am being a bit 
optimistic, but if we get that done in September and we get the 
clean bill of health, say, by the end of September, early 
October, from the D.C. Department of Health, when we get that, 
that actually then begins the time clock to get the building 
ready to be occupied.
    The fact that it is decontaminated of anthrax does not mean 
we just open the doors. Our plan is to do a full and complete 
renovation. We are going to refurbish offices, carpets, 
furniture, painting, cleanup, venting out the building. We want 
to do that so that when our employees come back to work, and we 
think that will take a couple of months to do it properly, we 
not only can tell you that the building is clean of anthrax and 
been safely decontaminated, but the building really provides 
the work environment that they deserve.
    So even the effective cleanup, when certified by D.C. 
Department of Health officials, there will still be several 
months of renovation that we want to do to get that building in 
the best possible shape.
    Ms. Norton. Mr. Day, while you have the mic, could I ask 
you where have all the workers gone? [Laughter.]
    I would like to know where the workers--first of all, I 
would like to know the number of workers that were there. Where 
are they now? Will all of them be coming back? Will you have 
difficulties attracting workers back? Have you been working 
with the union on a transition to get actual people back in 
that facility?
    Mr. Day. Let me take it in parts. Congresswoman, I can give 
you some very specific numbers and I do not know them off the 
top of my head. On rough order of magnitude, we are talking 
approximately 2,500 people. I can get you more specific numbers 
exactly. They are represented by different unions, so I could 
give you that breakdown as well.
    In terms of where they are, they are working in both the 
stations and branches of the District itself, but the 
processing employees for the most part have gone out to other 
processing centers in the D.C. metropolitan area.
    What we had to do when we shut down the Brentwood facility 
was to re-disperse all of that mail to other centers to 
process. And again, as I was thanking and praising employees, I 
think the amazing story to this is they have gone out, and that 
is obviously a great inconvenience, they have got to go to 
other facilities other than where they normally worked. They 
are working there. They are processing the mail. Quite 
honestly, the capital area was recognized as the best service 
performance in the country.
    So our employees have done an amazing job in a very 
difficult environment. So they are spread around six other 
major processing centers, but again I can give you very 
specific numbers if you would like that.
    Ms. Norton. I wish you would, within 30 days, for the 
record.
    Mr. Day. We can followup.
    Ms. Norton. Is this the largest facility, I know in this 
region, but is it the largest facility in the country?
    Mr. Day. No, ma'am, it is not.
    Ms. Norton. It is not. All right.
    Let me ask about this parameter. When you say things like 
25 ppb and 15 ppb--these sound like enormous disparities, so 
that it is hard for the public to understand whether that is 
good or bad, frankly. I would like to know how you decided on 
what the parameter would be? What happens if some of the gas 
escapes? What effect do you think that would have, given the 
precautions that have been taken?
    I am also interested in the cleaning of the machinery. Do 
you do that with gas or does somebody scrub down the machinery? 
Given the fact that these postal workers were exposed 
apparently from the machinery, the machinery turns out to be 
probably the culprit. I am very interested in that. I wish 
whoever feels best able would tackle those set of questions.
    Mr. Gordon. Congresswoman Norton, the Department of Health, 
along with the Postal Service and EPA, conducted mathematical 
models on the Brentwood facility, taking into consideration the 
worst-case scenario of a major release of gas out of that 
building, and establishing the perimeter of .16 miles. Now, we 
have also taken into consideration----
    Ms. Norton. Excuse me, Dr. Gordon, have you recommended 
that this be done at a certain time of the day or evening?
    Mr. Gordon. We would recommend it be started early in the 
morning throughout the entire day.
    Ms. Norton. On a weekday?
    Mr. Gordon. Our preference would be on the weekend. That is 
a discussion point that we are having.
    Ms. Norton. Does it matter that there is a Home Depot and 
other facilities nearby?
    Mr. Gordon. From a public health science standpoint, we do 
not think that the risk is that great. As in the situation with 
the Hart Building, we did not evacuate businesses. We did not 
evacuate residents.
    Ms. Norton. You did not. This is important to note, because 
if you want to find out how to do it, listen to what they did 
when senators were involved. [Laughter.]
    Mr. Gordon. That is correct.
    Ms. Norton. Now, the testimony here is that businesses were 
not evacuated. Homes were not evacuated. Have there been any 
reports from businesses or homes or residents of any effects 
from the decontamination?
    Mr. Gordon. None whatsoever.
    Ms. Norton. All right. So continue.
    Mr. Gordon. We have established the same safety parameters 
that were established for the senators and Congressmen around 
the Hart Building. In consultation with the U.S. Environmental 
Protection Agency, the District of Columbia and EPA set a base 
standard of 25 ppb. Now, let me tell you how that was arrived.
    The Federal occupational safety and health standard for 
worker exposure to chlorine dioxide gas is 1,000 ppb over an 8-
hour period of time, meaning that you would have to be exposed 
to concentrations of 1,000 ppb over 8 hours to exhibit clinical 
symptomology of ill-health effects.
    Ms. Norton. And that clinical symptomology would be what?
    Mr. Gordon. Respiratory dysfunction, possible skin rash, 
eyes watering, difficulty breathing. Chlorine dioxide is a 
toxicant that is corrosive. Chlorine is corrosive. However, in 
setting a safety standard at 25 ppb, an analogy would be this 
first step in the ceiling, the ceiling being 1,000 parts and 25 
being this step. At the time we did the Hart Building along 
with EPA, we used the TAGA bus and other air monitoring 
equipment that the Department of Health stationed around the 
Hart Building. We detected no levels of chlorine dioxide gas. 
In the event we would----
    Ms. Norton. Not a thing escaped?
    Mr. Gordon. Not a thing was detected at 25 ppb. And if it 
was released at that level, you would not smell it. And if you 
do smell it, it is going to smell like chlorine out of your 
swimming pool. If you are in a swimming pool, that odor of 
chlorine from the pool is the odor that you would detect if 
there was a release. At 25 ppb, you cannot even detect it by 
the human nose.
    We have set a standard I place. If the machinery goes off 
and we have two stationary air monitors on the roof, we have 
the TAGA bus that will be moving around and we have other air 
monitors around the perimeter of the building. In the event any 
of those go off, there will be an immediate shut-down of the 
operation, and to determine where and the location of any leak 
in the building. Therefore, we feel with that standard, that 
safety net, that the community is at very low risk.
    Ms. Norton. What time of the day did you do the--this is 
Mr. Voltaggio--what time of the day and what day of the week 
did you do the decontamination at Hart?
    Mr. Voltaggio. We started it at midnight, and we went 
through the next day, and it was a weekend--Saturday morning 
through the day Saturday is when we did the suite 
decontamination.
    Ms. Norton. I would only ask that you choose a time when 
there are the fewest people there. Dr. Gordon.
    Mr. Gordon. I think the reason why the department----
    Ms. Norton. That is not because I fear, given the testimony 
here, that there would be a health problem. I think one of our 
problems, perhaps our major problems, is to contain fears and 
if having few people around contains fears then why not do it 
that way.
    Mr. Gordon. The other reason why the Department of Health 
is encouraging the Postal Service to start early in the morning 
is that we also know based on the science that if there were to 
be a release of chlorine dioxide gas, if it is released during 
the daytime hours, exposed to the ultraviolet rays from the 
sun, it breaks down very rapidly and is rendered somewhat 
innocuous.
    Ms. Norton. So sunlight helps?
    Mr. Gordon. Absolutely. Absolutely. And that is our 
recommendation on line 17, which we will start actually the 
process of preparation will be Sunday and we have a target 
period starting at 7 a.m., on Monday. Now, we also have a 
weather station that has been constructed and is on top of the 
building. The purpose of that weather station is also to 
determine directional flow of the wind. In the event there is a 
release, we want to know which way it is blowing and which way 
it is going to go, as an additional safety net.
    We think that the necessary steps have been put in place to 
minimize the risk of any endangerment to this community. I must 
add, people need to understand, chlorine dioxide gas is not a 
gas that is flammable. It is not a gas that is going to explode 
like some other toxicants. And as my colleague Tom Voltaggio 
stated, it has been used over the years for decontamination of 
water and fruits and vegetables and foods, and we think it is a 
very acceptable means of sterilizing and decontaminating this 
facility and rendering the anthrax spores innocuous.
    Ms. Norton. Councilmember Orange, you have heard the 
testimony here concerning cautions that are being taken. I 
would like some sense of the gravamen of the concerns of the 
community. The community here, as I understand it, would 
involve people who live in the vicinity and people who use the 
post office. Like the employees, they are going to want to go 
back into that building the way they did before. What are the 
major concerns you are hearing from the community?
    Mr. Orange. Well, I guess the major concern is really 
making sure that full disclosure and all the information is put 
on the table and that it is accurate information. There is some 
concern when you have a full-blown article within the 
Washington Post that has all this information and people digest 
that information and then the experts come back 30 days later 
and say that the information in their article was erroneous. 
Yet that information came from the experts and was reported 
through the Washington Post.
    Ms. Norton. Do you have any information of that kind that 
you----
    Mr. Orange. Yes, for example, the 20,000 tons of chlorine 
dioxide gas that would be brought into the community, and now 
we are saying it is 2,000 pounds. And then when you look at the 
Hart Building and you look at the amount of chlorine dioxide 
gas that was used in the Hart Building, and you do the simple 
mathematics, it does not add up. It appears as though this 
should be more chlorine dioxide gas being utilized at the 
Brentwood facility than what is being put on the table. So the 
community just wants a clear analysis of what is exactly going 
to be put in the Brentwood facility.
    When you look at it in terms of 17.5 million cubic feet 
versus 100,000 cubic feet for the Hart Building, then you would 
say, I mean clearly you would expect there to be more chlorine 
dioxide gas pumped into the Brentwood facility.
    Now, when you talk about the perimeter, and I agree with 
Mr. Gordon and Mr. Day as it relates to the science and the 
health, .16 miles perimeter is probably a safe perimeter. But 
when you bring in the element of the community and then the 
public safety and, like you indicated yourself, containment of 
fears, then you probably would have to expand that perimeter a 
little bit to at least say during the 24 hours of operation 
that you need to shut down Brentwood Road; that you really 
should not have any traffic flowing on that street because that 
provides easy access to the facility.
    What if someone decided that I am going to get a big truck 
that day and I am going to fill it with explosives and I am 
going to drive right into the Brentwood facility because the 
street is open and it is still easy flow. So that is a 
containment of fear.
    We do not have any problems with the tests that are going 
to take place on Monday, and let me tell you why. Because the 
test itself, the gas is going to be pumped into an area that is 
contained by a tent, and the tent is contained within the 
facility itself, so you have an extra layer of containment.
    But when the actual fumigation takes place, that tent will 
not be in place, and then you just have the entire facility, 
17.5 million cubic feet. So I do think that we are getting 
close to all being on the same page. This clearly has been 
helpful, the town hall meeting that took place on June 27, and 
even the presentation that was made here today, and then the 
explanation that has been given by the other experts, but I do 
still believe that we should take the extra step of precaution 
and really discuss and talk about those contingency plans as 
well, so people will feel comfortable that there is in fact a 
contingency plan just in case something goes wrong.
    Ms. Norton. I am going to ask that there be meetings with 
the District on this matter, to do the kind of cost/benefit--
obviously, this is bending over backward, but I think the 
councilmember has raised a scenario that deserves some 
consideration. Can we straighten out Councilmember Orange's 
point about the amount of----
    Mr. Voltaggio. Yes, I hope I can maybe clarify that some. 
Chlorine dioxide is not brought onto the site. We generate 
chlorine dioxide at the site. What we do bring--we will have 
20,000 tons of material brought on and waste made from the 
process. They will only generate 2,000 pounds of chlorine 
dioxide gas.
    So I think the discrepancy about the poundage I think had 
to do with how much gas actually gets generated versus how much 
material you have to bring onto the site to generate the gas, 
because there is a chemical reaction that takes place in order 
to generate the chlorine dioxide from other materials, 
basically sodium bisufite, hydrochloric acid. We have bleach. 
We have a number of materials that are brought on in order to 
make it. But the chlorine dioxide itself is only 2,000 pounds.
    Ms. Norton. When you are going to wipe those machines--and 
those machines are what interests me, frankly, machines where 
we think the lethal contact occurred--is that going to be with 
pumping gas or are they going to be wiped down or what?
    Mr. Voltaggio. I would throw that to Mr. Day.
    Ms. Norton. Yes?
    Mr. Day. During the processing of the actual fumigation, 
the machines will be operational. They will be running. We want 
to make sure that every aspect of that machine is exposed to 
the gas for total disinfecting. So the equipment will be 
running full-speed, even line 17, the tenting operation we are 
going to do Monday, the equipment will be on and running. 
Nothing will be sitting stationary. Everything will be exposed.
    Ms. Norton. That is important.
    Mr. Day. Congressman, I would just further point out, the 
way our machine, it is automated distribution equipment, the 
way they are designed really for their normal use with 
maintenance, they have lids that open up so what you see is a 
contained machine, but fully capable of opening all those lids 
up so that all the interior portions of the machine will be 
fully exposed.
    Ms. Norton. So it is blowing out anything that is in there.
    Mr. Orange. Congresswoman.
    Ms. Norton. Yes, councilmember.
    Mr. Orange. We just received an answer that there would be 
20,000 tons of chemicals or materials that would be brought to 
the site, and then that will actually be turned into 2,000 tons 
of chlorine dioxide gas. That is precisely the type of 
information that the community wants, because it was put in the 
paper that it was 20,000 tons of chlorine dioxide gas.
    So we are not imagining this number of 20,000 tons, and 
today for the first time we got an explanation for what that 
20,000 tons represents. That is what I am saying--we need a 
clear accurate description of what is on that site, the actual 
tonnage, the actual poundage, and the relationship----
    Ms. Norton. Councilmember, are you saying that there has 
been a problem in getting that kind of communication? Is it a 
problem with the technical terminology? Is it a problem with 
contact? Is it a problem with your office making sure that 
people are in contact with you and the relevant community 
members? Maybe there is a way we can straighten out some of 
that right here now.
    Mr. Orange. I think what it is, is maybe we are talking 
past each other, as opposed to really listening to each other 
and trying to really dissect the information that is made 
available. As I indicated, I keep going back to that Post 
article that says 20,000 tons of chlorine dioxide gas will be 
pumped into this building. And then the experts come back this 
week or a few weeks ago and say, no, it is 2,000 pounds.
    Ms. Norton. That might have been the Post's mistake.
    Mr. Orange. Yes, and it could have been, but it has never 
been corrected. And I am just saying, let's correct that 
information and let's see exactly what chemicals are onsite, 
how those chemicals are brought into that facility and how they 
will exit that facility.
    Ms. Norton. Dr. Gordon.
    Mr. Gordon. Yes, I need to, as the councilman has pointed 
out, I need to correct the record. I have been advised, I said 
1,000 ppb was the OSHA standard. It is actually 100 ppb, and we 
have set the safety net at 25. So I want the record to reflect 
and correct my earlier statement.
    Ms. Norton. Thank you.
    $22 billion, as I understand it--is that what this cleanup 
is supposed to cost?
    Mr. Day. No, Congresswoman--million.
    Ms. Norton. I am sorry--million, $22 million.
    Mr. Day. Yes.
    Ms. Norton. Do you have the cash on hand? [Laughter.]
    Mr. Day. Congresswoman, actually, through the good graces 
of Congress and the administration, we did get funds 
appropriated.
    Ms. Norton. I hate to ask this, but whenever government 
does anything, there are, ``cost overruns.'' Suppose it costs 
more than $22 million.
    Mr. Day. Congresswoman, we were appropriated initially $175 
million from the White House. Congress approved the White 
House, the president the ability to give funds to agencies. We 
had $175 million initially. Further, we were appropriated $500 
million for emergency preparedness. Our very first----
    Ms. Norton. That is for the United States of America.
    Mr. Day. But what you need to understand, Congresswoman, is 
that our very first priority in the emergency preparedness 
plan, very clear in the plan, is decontamination and cleanup 
and reoccupation of Brentwood and Trenton.
    Ms. Norton. Whatever it costs.
    Mr. Day. Whatever it costs. So, we have other plans. We 
have fully documented how we would spend the $500 million. Our 
commitment is to get this done and do it right. So the funds 
are there.
    Ms. Norton. Dr. Gordon, perhaps you can tell me, is the 
District of Columbia being fully reimbursed for any costs it 
has incurred from this crisis at Brentwood in particular?
    Mr. Gordon. We have not had any direct discussions with the 
Postal Service. However, the city administrator and the mayor 
have instructed us to maintain a catalogue of our time and 
cost, at which time we will request reimbursement from the 
Postal Service.
    Ms. Norton. Let me just ask the Postal Service right now. 
Are you prepared to reimburse the District of Columbia fully 
for any costs it incurs with respect to the Brentwood facility? 
[Laughter.]
    Do not hesitate now, Mr. Day. I mean, you were real quick 
that whatever it costs. It is costing the District of Columbia. 
We did not have anything to do with Brentwood.
    Mr. Day. It is a topic that has not been discussed. We are 
certainly open to the discussion.
    Ms. Norton. Well, I am having that discussion with you 
right now.
    [Applause.]
    Ms. Norton. You have really had the--the Post Office has 
had all of the services of our health department and of every 
other agency of the government that could be useful. The 
Congress, of course, gave you money to deal with whatever your 
expenses were. The expense that the District of Columbia has 
incurred is an expense.
    You cannot assure me that you will reimburse the District? 
You are reimbursing the contractors. The District of Columbia 
is a contractor in this matter. I do not want to get down and 
dirty with money here, but I really am prepared and I would 
like an answer within 30 days as to whether or not you are 
prepared to reimburse the District of Columbia.
    Mr. Day. We certainly can provide the response for you. 
Congresswoman, my only reluctance is, I do not even know the 
scale. So we would just have to discuss it.
    Ms. Norton. You do not know the scale of what the cleanup 
will be either. None of us knows the scale, but you have just 
said you are going to do whatever it takes, and it seems to me 
that was a good answer. Whatever it takes includes whatever the 
District of Columbia has in fact done.
    Mr. Day. I think we can certainly reach an agreement that 
will be work for everyone.
    Ms. Norton. Look, they have to provide chits like everybody 
else.
    Mr. Day. Congresswoman, the money was appropriated to us 
from Congress. It was not derived from our revenues. We will 
work to fairly compensate those parties that are part of this. 
We will work it out. I do not see that as a problem.
    Ms. Norton. I am going to take that as a yes and go forward 
from here.
    I must ask about future threats. People are going to walk 
in, and I think they should be reassured, because I know you 
are not going to let either your employees in or residents in 
until you have done all that you have described here.
    Now, that being the case, the question becomes, is 
Brentwood prepared for in case there is a new bioterrorism 
event? Now just a moment--let's try to get an answer here. 
Let's ask. It is one thing to clean the place out. It is 
another thing to prepare for the unknown, and that is part of 
what it would be.
    You of course have a greater sense of what might happen 
now. The Congress now has appropriated all kinds of money. I 
have just gotten for the Washington Hospital Center a promise 
with the first funds already there to build the first 
bioterrorism emergency room in the country. They are going to 
be prepared if we ever need it to hand 100-plus patients per 
hour in their emergency room.
    I have just gotten $10 million for Children's Hospital to 
do the same with respect to children. So if something happens, 
we are getting the medical facilities in place. What we want to 
know is, what is the Postal Service going to do to prevent the 
necessity or using any such medical facilities? How will we 
prevent a bioterrorist attack and how will we know if one is 
occurring in the Postal Service or in Brentwood?
    Mr. Day. Congresswoman, what we are dealing with in the 
Postal Service is how would we detect and contain, if there 
were another attack. We have two primary----
    Ms. Norton. Of any substance.
    Mr. Day. Biohazardous substance.
    Ms. Norton. Right.
    Mr. Day. We are also looking at other threats as well. We 
have two primary technologies that we are actively pursuing and 
testing right now that were a part of the appropriation that 
Congress provided. One is called a biological detection system. 
We have worked with various other Federal agencies to develop 
that.
    It is being tested right now in Baltimore, Maryland. Our 
plan is to move forward on that, again assuming the test is 
validated and it is proven effective. Right now, I would tell 
you that will be the outcome. It does look like the results are 
excellent.
    In terms of the ability to detect, it would have very low 
false positives; that it would truly tell you what happened, as 
well as a very low false negative. You do not want systems that 
alert you to something that really is not there. And we have 
put very tight parameters on that and the system looks to be 
very effective.
    We would like to move forward on that, although I will 
throw a caveat into our ability to move forward as quickly as 
possible, and we are looking to even try to award the contract 
in September. Our plan on that is to deploy it nationwide.
    Brentwood, being part of our network, would be there, and 
given the tragedy that they went through would be the very 
first facility, along with Hamilton Township, that we would 
want to put that kind of equipment. So as quickly as we can get 
it, it will be in place.
    The second level of technology we call a vacuuming and 
filtration system. That is to put over our equipment that if 
the event takes place, the anthrax escapes from the mail, we 
detect it, the problem is--and let me just be clear on this--
the only detection technology that is available you have to 
have an event. It has to escape to be detected. There is no way 
to peer inside mail to see if there is anthrax in there.
    So you find that out very quickly and you contain it, but 
this vacuuming and filtration system covers our automated 
distribution equipment. Right now, the DBCS-17 that everyone 
has talked about is a very open piece of equipment.
    Vacuuming and filtration would create a negative air-flow 
that if an event took place, it would draw those spores away, 
not just anthrax spores, but any hazard that might be placed in 
the mail. I would emphasize the biological detection system is 
done in a way that not only would detect anthrax, but we have 
built it in a way that gives it the ability to detect a range 
of biological hazards.
    Ms. Norton. That will be in place at the time that 
Brentwood is open?
    Mr. Day. No. Going back to the timeframes of when we think 
we can open it, the contractor's ability to get this equipment 
built and functioning, there maybe somewhat of a delay there, 
but that is true nationwide. Right now, we do not have that in 
place.
    Now, anything I can do to get it--again, our effort will be 
to get it in Brentwood and Hamilton first. Anything I can do to 
accelerate----
    Ms. Norton. And ``first'' would mean by approximately when?
    Mr. Day. We think that the equipment will be available late 
next spring.
    Now, the caveat I was giving you, Congresswoman, is, 
working with these companies to build this technology, they 
have been very clear to us, and I know this has been debated in 
Congress, on the issue of indemnification. Because of the 
liabilities that are associated, the legal liabilities, they 
have made very clear to us unless the issue of indemnification 
is rectified, they will not sign a contract with us.
    Ms. Norton. Does the bill pending in the Senate now do 
that, in your judgment?
    Mr. Day. We believe that the legislation pending, I believe 
there are different versions in both House and Senate, we 
believe it will do it, and the vendors we are dealing with 
believe that also. Of course, we have to wait to see what the 
final legislation actually says.
    Ms. Norton. Is this irradiated mail that the Congress is 
now receiving considered safe, and is this the only method now 
available for use in mail coming to secure environments like 
the Congress?
    Mr. Day. Congresswoman, I was on the Hill yesterday with 
both House and Senate administrative staff, and there was a 
study completed--I may defer if Dr. Sokas would like to comment 
on it, to try to determine some of the effects that have been 
reported and whether or not it is related to irradiated mail. 
There is an ongoing effort.
    My understanding is that link has not been shown, but again 
I will let Dr. Sokas comment on that. In terms of, is this the 
only way, we continue under guidelines we have had, 
conversations and ongoing dialog with office of homeland 
security, as well as advice in terms of threat from various 
Federal law enforcement agencies, that we need to continue the 
irradiation process.
    It is the only effective way that we have found that can 
decontaminate a biological hazard in the mail. There is some 
discussion right now--I do not know how far you want to get 
into technology--about the effectiveness of electronic beam 
versus an X-ray version, but that is really kind of splitting 
the hairs. It is more of the sophistication of the technology, 
but it is still irradiation.
    Ms. Norton. Yes. Dr. Sokas, did you want to comment on 
that--irradiated mail?
    Dr. Sokas. Yes, we have conducted two different studies, 
one that looked at the postal workers themselves as they were 
opening large bags, and there was some concern identified by a 
Postal Service contractor about degradation of the plastic that 
could cause some carbon monoxide as the large bags were being 
opened--the plastic-covered palettes were being opened. I 
believe that has been taken care of by different work practices 
that would reduce that.
    Ms. Norton. That is not opened. That mail is not opened at 
Brentwood, is it?
    Mr. Day. No, and we have eliminated the use of that 
plastic.
    Dr. Sokas. Right. But the second issue is, as you receive 
mail in office buildings specifically, the people on the Hill 
had a number of complaints. We had industrial hygienists who 
went and sampled the air, as well as the materials, and we had 
physicians who did interview the individuals.
    Our conclusions were that the traces and particles that 
were present were far below those of recognized standards for 
workplace settings, and we did not feel that they were causing 
some of the dry eyes and cough. The concern we mentioned at the 
time in the Capitol was--this was conducted in January, of 
course the humidity was quite low.
    There is some clear differences in terms of the paper dust 
and that sort of thing that happens. We thought that was more 
of a comfort issue that could be rectified, but that was not a 
hazard due to the irradiated mail.
    Ms. Norton. Let me ask one final question. I have had some 
complaints from my constituents. I do not now if Councilmember 
Orange has had such complaints as well. I do not know if they 
continued, but they have to do with delays in the mail in this 
area, with people who have had to pay late fees because they 
did not get their mail on time. Is this still happening? And 
have you taken steps, now that this mail is dispersed 
throughout the region, to avoid the problem of late delivery of 
mail in this area?
    Mr. Day. Congresswoman, there certainly were delays when we 
shut down the facility. There was a backlog of actually 
contaminated mail that needed to be treated. That backlog took 
us quite a bit of time to decontaminate.
    Ms. Norton. Yes, we are still getting some from that, I am 
here to testify.
    Mr. Day. I can't answer to what you are seeing, but let me 
just tell you how long it took and where we got the backlog 
cleaned up. We have continued to irradiate the destination mail 
to the Federal agencies in the District, and it is the zip 
codes 202 through 205 that we continue to irradiate. That 
backlog for letter and oversize mail pieces was cleaned up back 
in the February-March timeframe.
    What was severely backlogged because we were awaiting X-ray 
technology to be activated in New Jersey at the facility we 
used, were packages, and we cleared the backlog of packages 
back in June. We have been in a stable environment in which we 
prepare, mail on the day it arrives here in this area, ship it 
to New Jersey, treat it, turn it around in 24 hours, bring it 
back into the D.C. area, open it, vent it so that any odor or 
any other issues are----
    Ms. Norton. That is congressional mail. What about the mail 
of the average person?
    Mr. Day. The average person----
    Ms. Norton. Whose mail went through Brentwood.
    Mr. Day. So the average person in the 200 zip code range, 
that mail has been redistributed through the area. We use a 
system of external measurement, and as I indicated earlier, 
this area had the highest service numbers in the country, and 
the 200 zip code range being included.
    Ms. Norton. So you believe there is no delay at this time 
resulting from the dispersal of the employees around the 
region?
    Mr. Day. Nothing related to the dispersal of the employees, 
nothing related to irradiation. Certainly anecdotally, anyone 
might have a story of a delayed mail piece, but our service 
measures tell us that we are providing as good a service in 
this area as we did before the unfortunate incident in October.
    Ms. Norton. I want to thank this panel of witnesses. I have 
held you longer because you had more of the answers I think 
that the community and that the Congress needed than perhaps 
others. We very much appreciate your testimony.
    We would now like to call John Hegarty, national president 
of the National Postal Mail Handlers; Alan Ferranto, director 
of safety and health, National Association of Letter Carriers; 
Roy Braunstein, legislative director, American Postal Workers 
Union; also Corey Thompson, APWU safety and health specialist.
    If you would stand and please raise your right hands so 
that you may take the oath.
    [Witnesses sworn.]
    Ms. Norton. Thank you very much. Please be seated. We are 
pleased to receive your testimony.
    Mr. Hegarty.

  STATEMENTS OF JOHN F. HEGARTY, NATIONAL PRESIDENT, NATIONAL 
   POSTAL MAIL HANDLERS UNION; ALAN C. FERRANTO, DIRECTOR OF 
SAFETY AND HEALTH, NATIONAL ASSOCIATION OF LETTER CARRIERS; AND 
 ROY BRAUNSTEIN, LEGISLATIVE DIRECTOR, AMERICAN POSTAL WORKERS 
                             UNION

    Mr. Hegarty. Good morning, Congresswoman Norton. My name is 
John Hegarty. I am the president of the National Postal Mail 
Handlers Union. I have with me today in reference to Brentwood, 
Cynthia Vines, who is the branch president for the National 
Postal Mail Handlers Union at the Brentwood facility, and 
Richard Collins, who is on the mail security task force for the 
National Postal Mail Handlers Union.
    On behalf of 50,000 union mail handlers employed by the 
U.S. Postal Service, including approximately 500 mail handlers 
who work at the Brentwood Processing and Distribution Center, I 
appreciate the opportunity to testify about the challenges 
currently facing the Postal Service and all postal employees at 
Brentwood.
    As you probably know, the employees represented by the Mail 
Handlers Union are an essential part of the mail processing and 
distribution network utilized by the Postal Service to move 
more than 200 billion pieces of mail each year.
    Mail handlers work in all of the Nation's large postal 
plants and are responsible for loading and unloading trucks, 
transporting mail within the facility, preparing mail for 
distribution and delivery, operating a host of machinery and 
automated equipment, and containerizing mail for subsequent 
delivery. Our members are generally the first and the last to 
handle the mail as it comes into and leaves the postal plants.
    Although I am relatively new to Washington, DC, and this is 
my first visit to the area surrounding Brentwood, I have been 
personally involved in the issues arising from last year's 
anthrax attacks. Indeed, after attending a labor-management 
grievance meeting last October at the Hamilton Township postal 
facility in Trenton, New Jersey, I was one of the thousands of 
postal employees who had to take several months of antibiotics 
in order to ensure my own immunity from anthrax contamination. 
In some small respects, therefore, I know first-hand the fear 
and anxiety that now affects many postal employees.
    My personal experience with the terror of anthrax adds 
personal meaning to what has been and what must continue to be 
our guiding principle, that our paramount concern must be the 
safety and well-being of postal employees, including all mail 
handlers.
    This includes not only ensuring that the Brentwood facility 
is free of anthrax, but also making sure that the employees are 
emotionally ready, willing and able to move back into the 
facility. To this end, the mail handlers union has been an 
active participant in the mail security task force established 
by postal management and including representatives of all 
unions and employee associations, which has been meeting since 
last year to ensure that all reasonable measures are being 
taken to prevent any further infection from anthrax or other 
biological agents.
    We have also been active supporters of the efforts to 
obtain sufficient congressional funding for the cleanup effort 
both here at Brentwood, and at other postal facilities along 
the eastern seaboard. We particularly appreciate the efforts 
made by members of this subcommittee and fervently hope that 
the Congress will continue to provide complete funding for the 
costs imposed on the Postal Service because of the anthrax 
attacks and their aftermath.
    Turning to the present situation at Brentwood, again our 
primary concern must be the health and welfare of the 2,000 
postal employees who work at Brentwood and who, for the past 9 
months, have been scattered around in neighboring postal 
facilities.
    To meet these concerns, the employees at Brentwood must 
know, first, that all levels of government and postal 
management are doing everything possible, using the best 
available science and technology, to ensure that the Brentwood 
facility is fully decontaminated before any worker is asked to 
return; second, that they are being kept fully informed about 
the latest developments, including information about the actual 
cleanup so that there is no misinformation disseminated and so 
that the rumor mill can be put to rest; third, that they have a 
real choice on whether to return, so that employees who are 
experiencing particular fear or anxiety can freely choose not 
to return to Brentwood without any loss of pay or benefits; 
four, that if they return to Brentwood, the employees will be 
carefully monitored for any illnesses or other adverse side 
effects, whether physical or emotional, especially during the 
first few days and weeks after Brentwood is reopened; fifth, 
that the reopening of Brentwood is not the end of our concerns, 
but rather the starting point from which the Postal Service 
will take whatever steps are necessary and use whatever 
technologies are available to ensure that postal employees and 
the mail that they process is safe; sixth, that the elected 
representatives of these employees, meaning the union 
representatives at the local level, are allowed to participate 
in the planning and implementation for each and every step of 
the project that needs to be accomplished at the Brentwood 
facility.
    If these general guidelines are followed, I believe that 
the reopening of Brentwood can be accomplished smoothly and 
successfully. But it is easier to state these guidelines than 
to follow them. For example, Congress not only needs to 
continue its oversight of this cleanup, but Congress also has 
to continue full funding for the cleanup and for all of the 
followup work that must be completed after the facility is 
reopened. Postal management also has to do a better job of 
making sure that complete and accurate information is being 
disseminated to its employees and that questions are answered 
before the rumors start flying.
    The examples could continue, but there is no reason to 
belabor the point. All of the participants must work together 
to ensure the safety and the well-being of the employees at 
Brentwood. Anything less would increase the fear and anxiety of 
these postal employees who have already suffered too much.
    Thank you for your time, and I would be glad to answer any 
questions you might have.
    [The prepared statement of Mr. Hegarty follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. Thank you very much, Mr. Hegarty.
    Mr. Ferranto.
    Mr. Ferranto. Thank you, Congresswoman. I would like to 
thank you for a request for a CDC study that will assure our 
members that they are safe, and not only from anthrax, but from 
the decontamination process as well. We do appreciate that. I 
would like to begin my testimony at this present time.
    Thank you, Chairman Morella and Ranking Member Norton for 
the opportunity to testify on this important subject. My name 
is Al Ferranto and I am director of safety and health of the 
National Association of Letter Carriers. Since September 11th 
of last year, this has been a trying time for all Americans.
    For those of us in the postal community, we have also been 
personally confronted with challenges previously considered 
unimaginable. I am happy to report that the 350,000 members of 
the National Association of Letter Carriers have shown 
remarkable strength in bouncing back from these attacks. We 
know that there are few uniquely American experiences like the 
daily ritual of reaching into the mailbox to get the mail. That 
is why we went to such great lengths to be out on the streets 
and serving the public last fall.
    As you well know, Madam Chair, the initial response to the 
anthrax attacks was chaotic, whether it was in New York, 
Florida, Capitol Hill or the post office. That was due in large 
part to the unprecedented nature of the circumstances. However, 
within the Postal Service, unprecedented circumstances gave 
rise to unprecedented levels of cooperation. The Postal Service 
established a line of communication with all the employee 
organizations, initially meeting on a daily basis to deal with 
events as they occurred.
    The Mail Security Task Force Working Group, as it has come 
to be known, was formed by representatives from all of the 
employee organizations and all relevant departments within the 
Postal Service. At any given time, agencies with expertise in a 
particular area have briefed the group. Once the immediate 
anthrax threat subsided, that structure remained in place. 
While we no longer meet on a daily basis, we get together 
frequently to discuss the latest developments. For the last 
several months, cleanup of the Brentwood facility has been the 
dominant topic in those meetings.
    The NALC recognizes the extraordinary challenges associated 
with decontaminating the Brentwood facility. Whereas the Hart 
Building cleanup dealt with 100,000 square feet, the Brentwood 
Processing and Distribution Center requires covering 17 million 
square feet of space. The good news is that the Hart Building 
gave us a good road map to what to expect during the cleanup.
    We are satisfied that the Postal Service is exercising the 
right level of caution in moving forward, and are encouraged 
that it has not sought to impose artificial or arbitrary 
deadlines, which could lead to irresponsible actions being 
taken. Using the same contractors and the same chlorine dioxide 
approach also provides letter carriers, other postal employees 
and postal customers with the confidence that the cleanup of 
Brentwood will be as good or better than the cleanup of the 
Hart Building.
    As you know, at the initial stages of the anthrax 
situation, some of our members did not feel they received equal 
treatment to other government employees. We will not allow that 
to happen again. We will not let our members return to work at 
Brentwood until we are fully satisfied that it is safe for them 
to do so. For that reason, there has been a high premium placed 
on communications.
    Our local leadership is actively involved in the process. 
These are the people who have the most day to day interaction 
with our rank and file members. NALC Branch 142, under the 
leadership of President Joe Henry, who is here with me at this 
hearing, organized a meeting of our members, as well as members 
of the National Postal Mail Handlers Union at the NALC Branch 
142 union hall.
    They also cosponsored a meeting at the Israeli Baptist 
Church along with the mail handlers and the NAACP, which was 
attended by more than 300 people. President Henry also serves 
on both the Brentwood Reentry Committee and the Scientific 
Review Committee. The Brentwood Reentry Committee includes 
representatives from the other postal unions and various 
departments within the Postal Service itself. The Scientific 
Review Committee is comprised of the D.C. Department of Public 
Health, NIOSH, OSHA and the cleaning team, among others.
    At the headquarters level, sitting on the Mail Security 
Task Force Working Group has allowed us to hear about what the 
Postal Service plans to say to our members so that we can be 
sure they are being provided with the best possible 
information.
    Over the years, the NALC and its members have not been shy 
about letting our voices be heard when we do not like what the 
Postal Service is doing. However, at this point we are 
satisfied that the Postal Service is doing all that it can to 
assure the safety of our members to provide information about 
how the cleanup will take place and to answer any lingering 
questions that our members may still have.
    On March 27, there was a town meeting that a number of 
postal employees attended. Since that meeting, the Postal 
Service has stepped up its efforts at providing information to 
its employees. After the contract was awarded for the cleanup 
of Brentwood site, there were five employee town hall meetings 
conducted on May 16 and May 22. Employees were actually 
provided pay for the time needed to attend them. Our members 
were notified of the meetings through stand up talks on the 
workroom floor and through mailings to their home. Our local 
union leadership also attended the meetings.
    As new information has become available, postal supervisors 
have delivered stand up talks to our members to keep them up to 
date. In addition, a system has been set up that our members 
can ask any questions or raise concerns. There are question 
forms, a toll-free number, communication facilitators at any 
facility where Brentwood employees are located, Brentwood 
update bulletin boards, mailings to homes, town hall meetings, 
and the USPS Web site. Many of the questions gathered through 
these channels are answered in writing and distributed on a 
regular basis.
    Our understanding is that the final step in the process 
will be a review by the Environmental Clearance Committee 
comprised of the Environmental Protection Agency, the Center 
for Disease Control and Prevention, Occupational Safety and 
Health Administration, and the Armed Forces Radiobiology 
Research Institute.
    We look forward to hearing from this committee about the 
effectiveness of the Brentwood cleanup so that we can be 
confident that our members and the public we serve are 
protected prior to the facility being reopened.
    At the time of the attack, there were 242 letter carriers 
working out of the Brentwood facility. We expect that all of 
them, with the possible exception of some of those responsible 
for handling government mail, will go back to work at that 
location. Given the nature of the circumstances, it is 
understandable that some of our members have some anxiety about 
going back to work at Brentwood.
    The Postal Service needs to do its part to make sure that 
our members have every confidence that they are returning to a 
safe and healthy workplace. So far, the Postal Service is 
making that effort. Of course, until the process is completed, 
we will continue to communicate regularly with our membership 
and with the Postal Service.
    Thank you for this opportunity to provide testimony, and I 
will answer any questions you may have. Thank you.
    [The prepared statement of Mr. Ferranto follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Norton. Thank you, Mr. Ferranto.
    Mr. Braunstein.
    Mr. Braunstein. Thank you, Congresswoman Norton. Before I 
begin, I just also want to concur with NALC's statement this 
morning thanking you for requesting CDC to do the study. We 
feel it is essentially important to our membership as well.
    My name is Roy Braunstein. I am the legislative director of 
the American Postal Workers Union. I am presenting APWU's 
testimony on behalf of President William Burrus, who is unable 
to attend personally today.
    Thank you for inviting APWU to testify before this 
committee on the cleanup of the U.S. Postal Service Brentwood 
and Hamilton, New Jersey facilities. On behalf of the 330,000 
APWU-represented employees, I wish to express our deep 
gratitude for your concern.
    The events of September and October 2001 will be eternally 
etched in the history of our country as times of sacrifice and 
courage. The lives of postal heroes Joseph P. Curseen Jr. and 
Thomas L. Morris Jr. were taken by the terrorist act of 
depositing anthrax into the mail stream.
    They are deserving of honor and remembrance. Representative 
Albert Wynn introduced legislation, H.R. 3287, in November to 
rename the Brentwood postal facility in honor of Mr. Curseen 
and Mr. Morris. We believe expeditious passage of the bill 
would be a fitting memorial to them.
    Three other members of our bargaining unit were seriously 
infected by inhalation anthrax and continue their 
rehabilitation 8 months later. More have suffered the 
debilitating effects of cutaneous anthrax with unexpected 
lingering effects. Conducting this hearing demonstrates that we 
remember the heroic sacrifices of all these postal workers.
    Immediately following the discovery that postal employees 
had been exposed to a deadly agent, the postal community 
rallied as one to assure employees and the public that mail 
service would continue and that we would do our very best to 
ensure the safety of the mail. Never in President William 
Burrus' 44 years of postal service had he experienced the level 
of cooperation between management and the employees that was 
exhibited in the aftermath of the anthrax attack. Each course 
of action was discussed and decided on a consensus basis, with 
the overriding goal of safety and security.
    While the loss of our coworkers was fresh in our minds, our 
union refrained from engaging in any finger pointing, except at 
the despicable individual or individuals who used the mails as 
a means of distributing poison. We explained to our members 
that CDC, Centers for Disease Control, the public health 
agencies and postal management acted reasonably given the 
information available at the time.
    Regrettably, the acts of cooperation that marked the 
immediate aftermath of the anthrax attacks have now been 
replaced with bureaucratic posturing and no place for employee 
input. As the level of cooperation gradually diminished, we 
find ourselves on this date in less than a cooperative mode on 
the subject of cleanup, health monitoring and employee 
dislocation. The unions and employees continue to receive 
regular briefings, but decisions have become unilateral, with 
employee concerns subjugated to concerns about cost. Although 
specific plans for cleaning up Brentwood have been completed, 
they have yet to be shared in depth with the union or the 
employees.
    This is unacceptable. The cleanup of the Brentwood-Hamilton 
facilities has been delayed unnecessarily by legal wrangling 
and indecision. Because the employees have not been regularly 
briefed about the process, progress and procedures, they are 
less than confident of the results. I am certain you can 
appreciate the apprehension the employees feel at the prospect 
of returning to the buildings where their coworkers died and 
suffered life-threatening illnesses.
    Early on, we anticipated that every reasonable effort would 
be undertaken to continually express to affected employees the 
appreciation they are entitled to. Yet a series of decisions 
have been made that convey the message that the danger is 
passed and now it is back to business as usual.
    Lingering issues remain over compensation to employees for 
the loss of personal items that were in their lockers when the 
facilities were closed. Reimbursement for computers and union-
owned items that were located in the facilities has not been 
resolved. The responsibility and cost of transportation from 
Brentwood and Hamilton to the facilities where the employees 
now work has been shifted to the employees.
    Even payment to private medical facilities in Hamilton for 
the treatment of postal employees has been unnecessarily 
delayed. Under normal circumstances, these might be considered 
trivial issues. Under these unique circumstances, the employees 
view them as acts of betrayal.
    From the initial distribution of medication to protect 
against anthrax infection, the APWU has insisted that caution 
be exercised and a comprehensive medical monitoring program be 
put in place. Instead, the employees have faced the blanket 
denial of any lingering medical effect, as they watch more and 
more coworkers expire from mysterious diseases.
    Strong athletic postal workers have been struck down. The 
only message that their coworkers have received have been 
denial. To make matters worse, this message of denial has been 
received via the news media instead of in-plant official 
communications. Yet day after day, these employees continue to 
move America's mail because that is their oath and their 
commitment.
    To date, the promised detection equipment remains just 
that--a promise. In the initial months following the attack, 
the Postal Service was deluged with offers of detection 
equipment, much of which was found lacking in effectiveness. 
Eight months later, the employees have lost confidence they 
will ever be protected from a future attack.
    The decisions to close government buildings while postal 
facilities remained open were explainable given the information 
available at the time of exposure. However, the decision to 
continue to irradiate mail destined for government offices 
after postal employees have been exposed to the mail in its 
original form clearly reveals a two-tier system. Should postal 
employees believe they are expendable, while political 
representatives demand protection?
    Although knowledge of the health effects of exposure to 
irradiated mail is a work in progress, postal employees labor 
on serving their community and their country. How many more 
employees must suffer unexplainable illnesses with no 
alternative but filing workers compensation claims with the 
inevitable bureaucratic denials?
    The employees I am privileged to represent have suffered 
greatly and they deserve better. They are entitled to work in 
facilities that are safe. They are entitled to recognition for 
the sacrifices they have made. The opening of Brentwood and 
Hamilton cleared of all contamination is a reasonable 
expectation. Until the opening, the recognition of a job well 
done would be appreciated.
    There is still a considerable amount to be accomplished 
before the Brentwood facility should be opened. We continue to 
seek involvement at every level to ensure a complete 
understanding of all aspects of the cleanup that would allow 
the APWU to better inform our members who have risked their 
lives and continue to do so in the performance of their jobs.
    In closing, I again want to thank the committee for the 
opportunity to testify on behalf of the members of the American 
Postal Workers Union, and I am willing to address any questions 
the committee may have.
    Thank you.
    [The prepared statement of Mr. Braunstein follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. I appreciate the testimony. We cannot have any 
understanding of what has happened and what will happen without 
hearing from those who represent the employees at Brentwood. In 
fact, your testimony is a testament to why unions are in the 
public interest. Imagine if there had been no collective 
bargaining at Brentwood when this happened.
    Imagine if the employees were not organized, and the Postal 
Service, who obviously is management and is blamed for the 
matter, in so much as blame can be ascribed to anybody, would 
have been left to somehow deal with its own employees.
    That would have been a completely unachievable goal. So I 
think that--I hope the country is cognizant as it as of the 
importance of having organized employees at the twin towers. It 
was so important--I think even more important to have organized 
employees at Brentwood.
    Now, you have testified--the three of you have testified of 
some degree of labor-management cooperation that one would 
expect in a tragedy of this kind. The unions are to be 
congratulated for being very watchful, without exploiting a 
tragedy. It seems to me you are a case study in how to handle a 
major tragedy.
    At the same time, I would like to have some greater sense 
of what the post office additionally needs to do as we approach 
this critical time. For example, I was surprised to hear Mr. 
Braunstein say that the plans henceforth for the coming period, 
presumably the decontamination and thereafter, have not been 
shared.
    I do not understand that testimony. If you have been having 
regular meetings, is it that they do not know yet what the 
final plans are? Or is there some other reason why there would 
be this lapse on this important issue?
    Mr. Braunstein. Well, if I could, Congresswoman Norton, and 
ask Corey Thompson from APWU to join me here. APWU is not on 
the scientific review committee, and therefore there is more 
than healthy degree of skepticism in terms of what is going on.
    Ms. Norton. On the Scientific Review Committee are others 
who are not scientists?
    Mr. Braunstein. That is correct--other unions apparently 
have been invited.
    Ms. Norton. How many workers are represented by whom here? 
How many workers do you represent? How many workers do you 
represent, Mr. Ferranto? How many workers do you represent, Mr. 
Hegarty? And are any of you on the scientific panel?
    Mr. Hegarty. We represent 500 mail handlers at Brentwood 
and 50,000 mail handlers nationwide.
    Ms. Norton. OK. That is 500--there are about 2,500 there, I 
understand. Mr. Ferranto?
    Mr. Ferranto. We represent approximately 242 letter 
carriers at Brentwood.
    Ms. Norton. OK--500, 200. And you, Mr. Braunstein?
    Mr. Braunstein. We represent in excess of 1,500.
    Ms. Norton. All right. None of you, or no representatives 
from your unions are on the scientific panel?
    Mr. Ferranto. Branch 142, President Joe Henry serves on the 
scientific panel.
    Ms. Norton. How are those choices made? I mean, I should 
not think that there would be any competition among unions on 
that. I mean, how are those choices made?
    Mr. Ferranto. It is my understanding that he was invited to 
be on the committee.
    Ms. Norton. That is all you know?
    Mr. Ferranto. That is my understanding.
    Ms. Norton. Does he share his information with the other 
representatives, other unions?
    Mr. Ferranto. I believe, from talking with Joe Henry, that 
he is--the mail handlers also have a representative on that 
committee.
    Ms. Norton. Are you satisfied with the scientific panel--
with what the scientific--I mean, Mr. Braunstein, who 
represents the most workers, does not have any sense of what 
the plans are so he cannot reassure the 1,500 workers he 
represents. How are we to get around that problem as we 
approach this--the same for Mr. Hegarty, I guess--as we 
approach this critical juncture?
    Mr. Hegarty. My understanding is that we also have a 
representative on this scientific committee and also that the 
Postal Service is having meetings every Friday with the unions 
to discuss what is going on at Brentwood, etc. Now, I am not 
sure why the APWU is not on the committee. I think that is 
something that postal management would need to deal with with 
the APWU.
    Ms. Norton. Well, maybe we can have--Mr. Braunstein said he 
would be joined by a colleague.
    Mr. Braunstein. Mr. Corey Thompson.
    Ms. Norton. Yes.
    Mr. Thompson. The issue of committees--I was quite 
surprised as I sat there and listened to testimony of I believe 
it was Dr. Gordon, as he mentioned all these plans that had 
been reviewed, none of which we have had the opportunity to 
see.
    Ms. Norton. Have your representatives had the opportunity 
to see these plans? Mr. Braunstein has not. Mr. Braunstein's 
union, the APWU, has not. You are not on the committee.
    Mr. Thompson. That is correct.
    Ms. Norton. Why are you not on the committee and the other 
two are on the committee?
    Mr. Braunstein. That is one of the questions we are trying 
to ascertain today.
    Ms. Norton. We have got to clear this up. Go ahead.
    Mr. Hegarty. Madam Congresswoman, this is Cynthia Vines. 
Ms. Vines is the branch president for the mail handlers union 
at the Brentwood facility and she does serve on the scientific 
committee. I would like to ask her to please address this issue 
briefly.
    Ms. Vines. Good morning. Myself and Mr. Henry were invited 
to sit on the Scientific Review Committee, and we are basically 
observers.
    Ms. Norton. You know you are under oath, even though I have 
not--everyone who comes to the table now is under oath. Go 
ahead.
    Ms. Vines. Yes, we basically sit in on the committee as 
observers to go back and inform the members.
    Ms. Norton. I am trying to find out why two out of three of 
the unions--do you have some information on why--you have 
definitively? Yes. You are definitively telling me that two out 
of three of the unions are on the scientific committee. We have 
had a normally cooperative arrangement with management. Why is 
your union not on the committee? Have you asked to be on the 
committee?
    Mr. Thompson. We are just finding out about a number of 
these committees, and about a number of the plans that are 
currently available. The process at Brentwood is an evolving 
process which, as we get closer to the level of decontaminating 
the facility, then it gives time for the plans to be completed, 
and the written scientific plans to be completed, so the 
committees are being done.
    Ms. Norton. How long has there been a scientific committee?
    Mr. Henry. Congressman Norton, it has been in place now for 
about 3 months, 4 months.
    Ms. Norton. That is a long time. Is there any 
representative of the Postal Service still here? Would you step 
to the table please? At this point, I think I am going to have 
to ask the people who have stepped to the table to stand so I 
can swear you all in. We need to understand this. Would all of 
you stand up--the three people who have come. First, let me ask 
them to stand.
    [Witnesses sworn.]
    Ms. Norton. Thank you. Please sit. Would the three of you 
please identify yourselves for the record? We will get you a 
seat right away. Sorry. Yes, sir.
    Mr. Henry. Joseph Henry, president of NALC Branch 142.
    Ms. Vines. Cynthia Vines, branch president for Washington, 
DC.
    Mr. King. Mitch King, government relations with the Postal 
Service.
    Ms. Norton. Perhaps you can clear this up for us, Mr. King. 
Why are two out of three of the unions represented on the 
science panel?
    Mr. King. I am afraid that I cannot clear it up for you. It 
is not a Postal Service committee. I understand it was 
organized by the D.C. government.
    Ms. Norton. Is anybody from D.C. government here?
    Mr. King. And other agencies working on the cleanup, and it 
is independent of us, to provide an independent review of what 
is going on.
    Ms. Norton. All right. If the Postal Service is not 
responsible for this, and you say the scientific panel was 
organized by the D.C. government.
    Mr. King. And the other agencies involved working with 
them--but I would be happy to bring this to their attention to 
the extent that I can.
    Ms. Norton. I wish you would. We will, of course, bring it 
to their attention. It seems to me not in the spirit that at 
least from the beginning the Postal Service certainly has 
operated. And I have absolutely no understanding of why the 
union that represents the largest number of employees would not 
be on the scientific community.
    What concerns me most, of course, is what I indicated from 
the beginning, and that is that we need to calm fears before 
fears arrive. Is there any chance that the local president of 
the APWU is on the committee and is not here perhaps?
    Mr. Braunstein. Not that we are aware of, no.
    Ms. Norton. There was some suggestion that perhaps--so you 
should be aware if in fact somebody from your union had been 
invited. We will just straighten that out right away. I mean, 
this is the kind of thing we need--an all-inclusive 
understanding of everything that is happening. The other unions 
do not have anything to do with this. The Postal Service does 
not have anything to do with this, and I cannot imagine why 
this has happened. We are going to find out why and try to 
straighten that out.
    Mr. Braunstein. Thank you.
    Ms. Norton. Of course, I notice that those who have been 
included seem to be less concerned and not to have the same 
issues that you who have not been included----
    Mr. Braunstein. There is a direct correlation.
    Ms. Norton. Direct correlation--that is exactly what we 
want to avoid. If everybody is in on the deal, then it is going 
to go smoothly, otherwise it certainly is not, and I appreciate 
that this has been raised.
    I want to ask whether or not the three union 
representatives here have seen any effects--psychological or 
mental health effects. What I am anticipating is that given the 
long closure of Brentwood, there may be some reluctance of 
people to go back. I do not know. I thought Mr. Hegarty 
testified. I thought that people might have some say on whether 
they go back. I am not sure about that.
    I mean, this is a big facility and I am sure that could 
involve us in some controversy if whole crews of people decide, 
a whole lot of people decide they do not want to go back. So 
first, I suppose I should clear that up first. Is there an 
obligation as far as you know, of workers who were assigned 
there at Brentwood in the first place, to go back once the all-
clear sign is up?
    Mr. Hegarty. Yes, Madam Congresswoman, I believe there 
would be an obligation under the collective bargaining 
agreement for the employees to return. What I was referring to 
is if there were a limited number of employees who legitimately 
were fearful for their lives and would not be able to return to 
that facility for psychological reasons, that some 
accommodations could be made within the confines of the 
collective bargaining agreement for them to be transferred to 
other postal facilities.
    Ms. Norton. Do you anticipate from what you understand from 
your own members that there will be reluctance to go back to 
Brentwood?
    Mr. Ferranto. Congresswoman, speaking for the National 
Association of Letter Carriers and speaking for Joe Henry, and 
we are also representing the letter carriers up in New Jersey 
that have the same feelings, there is some apprehension with 
some of our members of not returning to Brentwood. When that 
day comes and the opportunity when they reopen Brentwood, we 
will be in discussions with the Postal Service and with our 
members that have those apprehensions and we will try to work 
all those issues out at that time.
    Ms. Norton. Is there counseling or any other mental health 
service now available to help prepare employees to go back to 
work?
    Mr. Ferranto. We have in our collective bargaining 
agreements an employee assistance program, and that is 
accessible to the employees.
    Ms. Norton. Yes, Mr. Hegarty, did you have a comment on 
that?
    Mr. Hegarty. Yes, Ms. Vines informs me that we are in the 
process of trying to set up some type of counseling outside of 
the EAP where employees would be able to attend counseling and 
receive pay--you know, be on the clock in other words--that 
they would not have to seek counseling on their own time, and 
possibly get some of these issues put to rest. Again, we are 
hoping that with the increase in communication, as I said in my 
testimony, we want to eliminate any rumors that if the cleanup 
is done properly, if all of the appropriate government and 
health agencies along with the Postal Service are satisfied 
that the building is safe, I think that we may alleviate some 
of the fears.
    In my earlier testimony, what I was referring to is if 
there is still a limited number of employees who absolutely 
will not enter that building, I think we should try to find 
some accommodation for them.
    Ms. Norton. This is an issue of transition that I think is 
very important for labor and management to meet head-on very 
early. Anybody can anticipate that the long closure of this 
facility will lead to some concerns. I have virtually testified 
that I do not have the slightest concern, but I cannot blame 
people for wanting some, as I said, nobody died either where I 
work.
    And again, I believe that most of these fears are 
imaginary, but I can understand why they would be imagined. So 
I think that this notion of counseling has to be proactively 
marketed to people because they have to understand if you are 
telling me that under the collective bargaining agreement they 
cannot choose where they work, and of course one can understand 
that.
    Then, of course, people have to be prepared well in advance 
so that they will not be in jeopardy of their jobs or in 
jeopardy of some sanction if in fact they simply believe they 
cannot go there. They have got to get help concerning how to go 
there, and I know the union would make every attempt to do so.
    And if there is anything this committee can do to 
facilitate those services, I wish you would let us know. I 
consider that part and parcel of what the Congress appropriated 
the money for, to make sure that not only the building got 
clean, but that people felt they could go back into the 
building.
    Mr. Braunstein, did you have something?
    Mr. Braunstein. Yes, Congresswoman Norton, in the middle of 
this crisis not only in Brentwood, but in Hamilton Township in 
New Jersey, and also in Wallingford, the general facility in 
Connecticut, the Postal Service has been less than candid in 
certain aspects. You asked the question earlier today to Mr. 
Day whether or not the facility when it would be reopened, 
whether the employees would be relocated back to the facility--
that part of the question remained unanswered when the 
testimony of the panel was concluded.
    I spent all day yesterday with the New Jersey delegation 
with folks from Hamilton Township, from Trenton, who have just 
been informed that 66 of their members will not have to worry 
about returning to Hamilton Township because the Postal Service 
is taking advantage of the situation of further victimizing the 
victims by permanently reassigning them away from the facility 
when it is reopened.
    Ms. Norton. What would be the reason for that, Mr. 
Braunstein?
    Mr. Braunstein. They claim, at this point, it was an 
unanswered question, again, with Senator Torricelli yesterday 
that they could provide cost savings and they had not committed 
to reopening the facility with the outgoing function in 
Hamilton Township.
    Ms. Norton. Also, they may close the facility altogether.
    Mr. Braunstein. No, they intend to reopen it, but the 
outgoing mail, the originating mail from that area, from the 
Trenton facility and from Trenton city and suburbs may be 
relocated to Kilmer.
    Ms. Norton. Do you anticipate that the full complement of 
workers may not be called back to Brentwood?
    Mr. Braunstein. They have officially notified the union, 
both the Mail Handlers Union and APWU of 66 positions to be 
relocated. That is one problem.
    Ms. Norton. And what would be the reason for that, Mr. 
Braunstein?
    Mr. Braunstein. Because of cost savings, and the 
employees----
    Ms. Norton. But the employees would not lose their job, and 
they save costs by putting them elsewhere?
    Mr. Braunstein. By canvassing all the mail in one 
centralized location, yes--part of the transformation plan the 
Postal Service has put forward. But for them to be pushing a 
transformation plan on a set of employees who are currently 
victimized by being out of their facility since the same 
timeframe as Brentwood is just irresponsible on the part of the 
Postal Service.
    Ms. Norton. Do you think there might be employees who might 
voluntarily want to be relocated?
    Mr. Braunstein. There may be some that would voluntarily 
want to leave, but obviously the Postal Service has taken the 
position that they will take the junior regular employees and 
excess them out. So that is a major concern for our union in 
terms of----
    Ms. Norton. Is that bargainable?
    Mr. Braunstein. Yes.
    Ms. Norton. Obviously, there are some communications 
problems that need--if they arose in Trenton, and we do not 
need to have them in this large-scale here.
    Mr. Braunstein. And you have a problem in Wallingford, 
where the employees were told for months there were trace 
amounts of anthrax, and months later it was revealed that the 
trace amounts they had been working on were 3 million spores, 
which then were cleaned up. But the employees were given false 
information by the Postal Service for a long period of time.
    So the attitude of the employees in Wallingford, the 
attitude of the employees in Brentwood, and the attitude of the 
employees in Hamilton Township are somewhat similar. They are 
not necessarily being given all the information at the proper 
time.
    Ms. Norton. But for those who have been involved, that has 
not necessarily been the case here at Brentwood.
    Mr. Braunstein. But if I may interrupt, the selective 
elimination of APWU from begin on committees of concern so we 
can inform our employees just feeds into this same situation.
    Ms. Norton. It is stupid and we are going to find out why 
that has happened.
    [Applause.]
    Ms. Norton. I know that there have really been concerns 
about this irradiated mail from employees, and as a result I 
suppose of the intervention of the unions and the discussions 
with management, we understand that an additional ventilation 
step was added. I would like to know if since that step was 
added, there have been fewer complaints from employees 
concerning the irradiated mail or not.
    Mr. Thompson. I could address that issue. In fact, I was 
over at the V Street facilities just the other day which 
handles a lot of this, and there were a couple of different 
things that occurred at the time after the V Street employees 
were exposed to extremely high levels of carbon monoxide in the 
original process. That is when they learned to ventilate the 
mail, and that is when they also learned to ventilate the work 
area at that time.
    Since then, they have also learned that the level of 
irradiation that the post office contractors were using was not 
necessary, so they reduced that level also. And yes, the 
complaints on adverse effects and the severity of the adverse 
effects has gone down. But I do draw to your attention that 
there are still adverse effects.
    There have been studies done--NIOSH has done some. There 
has been a review by the Office of Compliance. Each of them has 
not stated that there are no adverse effects. What they 
basically have stated is that whatever they tested for and 
whatever they looked for as a potential cause, they have not 
been able to identify as being a cause.
    I spoke with the people out at the V Street facility--our 
members, a large number of them over different buildings--and 
asked the very question, are you still experiencing adverse 
effects. And they are. Now, we can go back and say that it was 
the dry air in January. Well, we do not have dry air in July in 
the facilities, and we are still seeing the same effects.
    So we have been very diligent and wanting to find out more 
on, is irradiated mail actually causing adverse effects. APWU 
members and many postal workers handle this mail before it is 
irradiated also. So any hazards that are there, they handle 
this mail for prepping it for radiation prior to that, so they 
have that exposure also.
    Ms. Norton. The people who drive the trucks--is it Mail 
Handlers that represents them?
    Mr. Braunstein. No. APWU does. Yes.
    Ms. Norton. What about the people who drive the trucks with 
this irradiated----
    Mr. Thompson. At the V Street facility, there were a couple 
of the truck drivers who have said that they had the same 
issues.
    Ms. Norton. I know whereof you speak because employees on 
the Hill who obviously do not have the same direct exposure as 
your people are having these complaints. We see how much all of 
this is a work in progress, and why we have to demand the 
highest standards--standards beyond anything anybody would 
imagine because we just do not know what we are doing.
    We have heard complaints about the distribution of masks 
and of gloves and of gloves in the right sizes. Is that still a 
problem?
    Mr. Thompson. We still do hear from----
    [Applause.]
    Ms. Norton. Let your union testify for you. [Laughter.]
    Mr. Thompson. We still do hear complaints regarding masks 
and gloves, both on sizes and types. Some people do not fit 
well with one particular type of glove, or the glove that they 
are provided rips as they are trying to put it on. So there are 
still issues there. That is currently a line of defense for 
employees. There is nothing else that is out there to protect 
employees from an exposure.
    Ms. Norton. Well, I can tell you this, Congress surely 
meant the gloves and the masks to be freely available, and that 
part of that money was clearly meant for that. People have been 
very concerned that their own staffs are feeling this, and they 
are several degrees away from this contamination.
    Mr. Thompson. One of the things that we have noticed that 
is difficult with gloves and masks also is people can be handed 
them and provided limited instruction on what their purpose is 
and how to wear them and how they should fit properly, but if 
they are not taught, really taught, what the purpose of those 
protective measures are, they either do not use them or they 
use them improperly, and that has not been good.
    Ms. Norton. Who would do that teaching?
    Mr. Thompson. That is a Postal Service responsibility to do 
that.
    Ms. Norton. Supervisors?
    Mr. Thompson. It would be down to the supervisors.
    Ms. Norton. And you do not think that is being done?
    Mr. Thompson. Well, I think there are still some issues out 
there that it is not being done properly. It is not being 
certified as being done. I hear it all the time. I get calls 
from the locals all the time that they are not trained. I ask 
people when I go out, have you received the training. And as 
much as we get response back that yes, we have trained 
everybody, when you go out and you ask the people, they have 
not.
    Ms. Norton. Well, the Postal Service is in the room. I am 
simply going to ask that those matters be brought to the 
attention of management. I am also going to ask that the notion 
of these gloves, it is not a lot of money, these gloves and 
masks be brought to the special attention of management.
    Mr. King. I will do that. It is my understanding we have 
millions of gloves. There is no problem with supply of gloves. 
I am hearing today, and I am sorry I do not work in the capital 
district, I work at headquarters, but I will make sure that the 
capital district has a sufficient supply.
    Ms. Norton. This may be a question of sizes, and it sounds 
to me only as an issue that requires some attention, not as 
something that the Postal Service would have any problem with.
    My final question would be, now that employees are 
scattered by necessity, how have people adjusted to their 
current assignments? Do you feel that they are ready for 
transition back in? I would like to know about the adjustment 
process, which obviously has to do with the transition process 
back to Brentwood.
    Mr. Hegarty. With Brentwood and with Trenton, thus far some 
employees are happy because they are working in a facility 
closer to their home. Other employees are very disadvantaged in 
that they have to drive an additional 30 or 40 miles in 
addition to a commute that they already had.
    Ms. Norton. Thirty or 40 miles?
    Mr. Hegarty. Yes, yes. Gaithersburg. In New Jersey, they 
have to drive up to South River, Kilmer, etc.
    Ms. Norton. Was there any attempt to help locate people a 
little closer to home, or was that just done----
    Mr. Hegarty. I am not sure what attempts were made. I do 
know that in most instances, the employees allegedly were told 
that they had to follow the mail.
    So in other words if a great deal of the mail that used to 
be processed is now going to be processed in Gaithersburg, then 
ostensibly a commensurate number of employees would travel to 
Gaithersburg to process that mail. The problem that we have had 
is that there have been some breakdowns in transportation.
    Initially, the Postal Service was providing bus 
transportation and also compensating the employees. In other 
words, when they arrived at their old facility, they clocked 
on. They hit the time clock or they were put on a time clock 
and they were on the clock. They would then be transported to 
the alternate facility, perform their work there, be 
transported back, and then clock out again.
    My understanding, and I have the representatives here from 
the facilities, is that is no longer the case. In some 
instances, the Postal Service is not even providing the 
transportation anymore. So the employees are being told that 
you will have to find your own way from Washington, DC, to 
Gaithersburg and you will not be on the clock until you get to 
the facility.
    Ms. Norton. Do you have any information on that?
    Mr. King. I am sorry. I do not have specific information, 
but we would be happy to try to respond for the record.
    Ms. Norton. Would you respond to the record within 30 days 
on that specific question? If transportation was provided 
before, why would transportation not be provided now, 
particularly given the long distances apparently some employees 
have to travel.
    Did you have some further testimony?
    Mr. Ferranto. Yes, Congresswoman. Initially, letter 
carriers were housed in tents in the parking lots when this 
first happened, and then they were relocated to facilities here 
in Washington. So all of our members are currently working in 
Washington, DC. To further answer your question, President Joe 
Henry here has day-to-day interaction with our members and he 
can further answer your question.
    Mr. Henry. I believe your question, Congresswoman Norton, 
is are they ready to make the transition back if that time 
comes. Our employees are no different than Mail Handlers and 
APWU employees. You have some who probably would welcome 
Brentwood opening back up and are ready to go back. You have 
others who certainly are anxious about whether or not it will 
ever be safe.
    As you said when I heard you talk earlier, some people will 
never believe that it is going to be safe to go back in. And so 
you have, but the majority of them are very practical and if it 
opens and if--one of the things I was gratified by today was 
the fact that when you came to our food drive breakfast, you 
said you were going to have these hearings, and indeed they 
have transpired; that the scope of these hearings certainly 
should help to alleviate many of the fears, if indeed 
everything that you are asking to be done here is done.
    Until today, I am sure after this takes place and if 
everything transpires that you asked, there will be a lot less 
people who will have a lot less fears than they have at the 
present time. So yes, you have some people ready to go back, 
and others who are not.
    Mr. Ferranto. Just as a further comment, hopefully there 
will be some hearings before we reenter Brentwood to make sure 
that all the----
    Ms. Norton. Count on it. [Laughter.]
    Mr. Ferranto. OK. And then we will have an opportunity to 
come back together and be together on this.
    Ms. Norton. I think you deserve at least that.
    Mr. Ferranto. That is right. We appreciate that.
    Ms. Norton. Nobody is perfect here, but we have got to 
strive for perfection.
    Mr. Ferranto. And I would just like to add that these have 
been unprecedented times for us, and these are impressive 
events, and we are doing our best to work through them, and 
together we will get there.
    Ms. Norton. Mr. Braunstein.
    Mr. Braunstein. I also would mirror the previous comments. 
Some employees would welcome the return; others would probably 
prefer not to. But it is really going to come down to a 
question of now much information that the union has also 
provided, both at the national and local level, that will 
increase the level of satisfaction and comfort that the members 
will need to feel for them to make an intelligent and proper 
determination.
    Ms. Norton. Well, Mr. Braunstein, all men and women are 
created equal. When it comes to Brentwood, all unions are going 
to be created equal and we are going to see that you are 
included.
    Mr. Braunstein. Thank you very much.
    Ms. Norton. Thank you very much to all of these witnesses--
very helpful testimony.
    Could I ask the final panel to come forward, and I 
apologize that there has been this delay, but I hope you 
understand that this has been a matter of some concern to the 
community and to the employees, and we want to get it all out 
on the table.
    Louise Martin, president, Brentwood Civic Association; 
James McGee, president, National Alliance of Postal and Federal 
Employees. Is Mr. McGee here? Is Ms. Martin here?
    Would you stand and raise your right hands?
    [Witnesses sworn.]
    Ms. Norton. Let the record reflect that each witness 
answered the question in the affirmative. You may be seated.
    Ms. Martin, the president of the Brentwood Civic 
Association, I am glad to receive your testimony.

    STATEMENTS OF LOUISE MARTIN, PRESIDENT, BRENTWOOD CIVIC 
 ASSOCIATION; AND JAMES M. MCGEE, PRESIDENT, NATIONAL ALLIANCE 
                OF POSTAL AND FEDERAL EMPLOYEES

    Ms. Martin. Good morning, Congresswoman Norton and other 
members of the committee. My name is Louise B. Martin. I am a 
resident of the Brentwood Community Association; also a 
resident of--I lost my place. My name is Louise B. Martin. I 
did not forget that. [Laughter.]
    I am a resident of the Brentwood community. My address is 
1340 Downing Street, NE, since 1954, and a Washington resident 
since 1952. I am president of the Brentwood Community 
Association.
    In reference to the cleanup of the postal facility, my 
concern as is most of the neighborhood is the protection of the 
residents--businesses and workers in the post office. I have 
attended every meeting held in reference to and regarding to 
the decontamination of the Brentwood postal facility, after 
which we have discussed this in our own groups as far as our 
knowledge of the process would allow. Still, there remain 
questions about the safety set-up around the perimeter of the 
building during and after fumigation.
    We know the smell of chlorine in the event that some of it 
escapes. However, what about the other three gases being mixed 
with the chlorine? After having read the above, there was less 
concern among some residents that read about and listened to 
the facts about the cleanup of the Hart Building. We are aware 
that the Brentwood facility is much larger, therefore creating 
a larger use of chemicals. That is our concern. Our concern is 
if some of these gases escape, how are they going to contain 
it.
    Since I have been here, I have heard the answers to some of 
the questions. But the sampling is going to be inside. What 
about when they do the full decontamination? I will stop right 
here to answer that.
    Ms. Norton. What about when they do the----
    Ms. Martin. Yes. When they are going to do a sampling on 
Monday, and the gases and whatever they are going to put into 
the building is going to be contained inside. Am I right?
    Ms. Norton. The whole point is to always have the gases 
contained inside, even when they do the whole building.
    Ms. Martin. No, but I mean, pumping it in--from where would 
they pump it in?
    Ms. Norton. Your question, Ms. Martin, simply raises the 
notion that your councilmember did--that there are still 
questions that the community feels it does not have adequate 
answers to. So not to worry, we are going to make sure that you 
get very specific answers to those questions.
    Do you want to continue with your testimony?
    Ms. Martin. No, that is my testimony.
    [The prepared statement of Ms. Martin follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. That is your testimony.
    Ms. Martin. That is our concern.
    Ms. Norton. And your concern about the three gases--the 
other gases?
    Ms. Martin. They are supposed to be mixed to make it, 
right?
    Ms. Norton. Yes.
    Ms. Martin. That is what we are concerned about--if it 
escapes and no one knows even when they smell it they do not 
know what they are smelling. Is this coming from the post 
office? If in the event, and we hope that does not happen, they 
would not know. They would not know what it would smell like. I 
am not sure that anybody can answer it.
    Can they answer, because I have heard a lot of unanswered 
questions since I have been sitting here, but I will bet there 
are a lot of questions that I can go back and tell some of the 
people that I did learn today. I have attended all of the 
meetings and read all of the literature, but I did hear some 
things today that they have discussed, and that is whether the 
gases are going to be--because we were under the illusion that 
these gases were going to be missed outside in a tank--you 
know, like in a tank on a trailer and then pumped into the 
building.
    But today, I am hearing something different about the 
sampling. So I assume that the sampling is going to be 
contained inside, and they would do all the rest of it inside. 
That is our concern.
    Ms. Norton. Thank you very much, Ms. Martin.
    Mr. McGee.
    Mr. Mcgee. Thank you.
    Good afternoon, Congresswoman Eleanor Holmes Norton, 
members of the committee. I am James McGee, national president 
of the National Alliance of Postal and Federal Employees. I 
welcome the opportunity to present the views of the NAPFE on 
the unprecedented effort to decontaminate and reenter a 
facility the size of Brentwood Processing Center of the 
widespread anthrax contamination.
    NAPFE is the Nation's oldest and largest independent black-
led labor union. We represent thousands of postal workers 
nationwide. Here in the District, we represent hundreds of 
workers at the Brentwood facility and I might add that number 
is some 700 members across all crafts--mail handlers, clerks 
and carriers.
    Throughout its 89-year history, NAPFE has worked to ensure 
the rights of postal and Federal workers to work free from 
discrimination in a safe and secure environment. The challenge 
of the Brentwood cleanup is to ensure a safe environment at a 
time when the Federal and medical authorities know very little 
about the threat involved and are learning as they go along.
    When staffers in Senator Daschle's office opened a letter 
containing anthrax spores on October 15, 2001, the prevailing 
medical wisdom at the time was that postal workers who handled 
the letter were not at risk. This proved to be a tragic error 
for which postal workers Thomas Morris Jr. and Joseph Curseen 
paid with their lives.
    Others experienced the serious illness of anthrax 
inhalation and still countless others have suffered and 
continue to suffer from symptoms that while not recognized as 
being directly related to anthrax, developed after exposure. In 
addition, there have been negative side effects from the 
powerful antibiotics used to protect them from this deadly 
illness.
    Now, at a time when the Postal Service and Federal agencies 
such as the Centers for Disease Control, are suffering from a 
crisis of trust and confidence, the Postal Service undertakes 
the unprecedented cleanup of anthrax contamination in a 
facility the size of Brentwood.
    I thank you, Madam Chair and members of the committee for 
convening this hearing at this time to hear from the experts 
planning and implementing the cleanup, and those of us who 
represent workers at Brentwood. It is extremely important that 
postal workers and the public and their representatives learn 
as much as possible about the cleanup effort and be able to 
give their views on the process.
    I commend Councilman Vincent Orange for organizing, and the 
Postal Service for holding meetings to inform the public about 
the procedures. I commend the Postal Service for establishing a 
community information line and for its own line, Brentwood 
Update. The Postal Service and the various health agencies got 
off to a slow start in protecting postal workers from this 
threat, unaware of the dangers involved, but have since worked 
diligently to meet the threats posed by this unprecedented 
danger. I thank them for that.
    However, since the Brentwood cleanup is an experiment, one 
that is not occurring in a vacuum and is putting at risk 
hundreds of lives, the Postal Service and Federal and local 
health authorities have an affirmative duty to reach out to 
postal workers and the public as often as it is necessary to 
address understandable feelings of apprehension at the process. 
While chlorine dioxide was successfully used to decontaminate 
the Hart Senate Building, its efficacy is unproven for the 
cleanup of a building the size of the Brentwood facility and 
with the type of equipment installed there.
    Postal workers are not only distressed that public health 
authorities failed to recognize the risk of anthrax exposure to 
their lives in a timely manner, they are also disheartened at 
the lack of adequate followup after being given cipro and 
doxycycline. Workers were given written advisories at the time 
they received treatment, but feel that little has been done 
since to address their concerns or to track the effects of the 
medications given.
    I urge the Postal Service and the health agencies to 
establish a systematic process where these concerns can be 
addressed. Given the complexity of the cleanup at hand, the 
onus should be on those agencies to actively seek out and 
reassure workers and to actively address complaints and 
concerns. Based on discussions we have had with Brentwood 
employees, it appears the current system that the Postal 
Service and the CDC have in place is inadequate to monitor the 
current health status of employees exposed to anthrax.
    Therefore, we recommend that the Postal Service set up a 
formal ongoing monitoring system of both the immediate and 
long-term consequences of the decontamination of the building 
and health status of employees for as long as it takes for 
workers and the public to feel safe. Understandably, given the 
mistakes of the past, postal workers must feel assured that 
this cleanup will be subject to the same standards used at the 
Hart Building. I am heartened that the Postal Service is 
pursuing a zero-spore standard.
    This process requires teamwork, not only for the Postal 
Service, but with agencies such as EPA and the White House 
Office of Science and Technology Policy, but between the Postal 
Service, its workers and their representatives. The events 
surrounding the anthrax exposure at Brentwood highlighted how 
little health officials knew about how to protect postal 
workers from such a bioterror threat.
    The cleanup of the facility is one of the confidence-
building measures that the Postal Service and health agencies 
must perform. We are confident that the Postal Service would 
not knowingly put its workers at risk and applaud it for the 
actions it has taken thus far. The Postal Service should not 
miss the opportunity to learn from past mistakes. We urge them 
to set up a formal system of responding to employee concerns 
for all of the circumstances surrounding the anthrax exposure, 
not only for the cleanup.
    We thank you for your attention, and look forward to 
working with all involved on this vital process.
    Thank you.
    [The prepared statement of Mr. McGee follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. Thank you very much, Mr. McGee.
    Let me ask both of you whether you are satisfied with the 
level of communication that you have had from the Postal 
Service.
    Ms. Martin. Well, I think the communication that we have 
had has been through the meetings that were called by the 
councilmember.
    Ms. Norton. Has the Postal Service had meetings themselves?
    Ms. Martin. The Postal Service at that time passed out 
question and answers and an explanation of what was going on 
that was very informative to all the people who got them at 
those meetings. These were the meetings that were called by the 
councilperson. Also, I think the post office had a meeting, and 
some of these forms were passed out at their meeting. Those 
were the things that we had discussed.
    There is no answer. I am confident that I do not think they 
have the answer. I do not think they have the answer. They are 
trying to get it. And so, we have to think about what may 
happen, not what they think is going to happen. Like, how are 
they going to let us know when they are going to start, how 
long it is going to take, and will they notify us?
    Ms. Norton. Were you pleased that these door-to-door 
meetings, or this door-to-door--we are told that people will be 
going from door to door during this test. Do you think that is 
the appropriate----
    Ms. Martin. To pass our information to let us know when 
they are going to start?
    Ms. Norton. Apparently. And here, I do not have the full 
details, but they have mentioned that they will be going from 
door to door during the test as a way to communicate to the 
people in the immediate area concerning what is going on. Is 
that an appropriate way to behave?
    Ms. Martin. I think that would be one way--through the 
media, through the papers. Everybody does not listen to 
television, but I think more people listen to television than 
read the papers, so that they will know. But I have heard on 
several of the channels that they were going from door to door 
prior to this preview.
    Ms. Norton. Test, yes.
    Ms. Martin. Yes--that they are having--sampling test. 
Supposedly, I do not know what it is going to be tomorrow or 
Sunday because someone here from that health group said that it 
would be done Monday. So are they going out Saturday? Are they 
going out Sunday?
    Ms. Norton. Mr. McGee.
    Mr. Mcgee. Well, Congresswoman Norton, we are not 
satisfied. We are not included. We have asked to be included so 
that we could provide definitive answers to our members. We 
have not been included in updates and what have you.
    Ms. Norton. You have a different status, I take it.
    Mr. Mcgee. We are not exclusive. We are not exclusive, and 
we understand that. But now we are talking about the health and 
safety of people's lives, and I think that supersedes being a 
part of the collective bargaining. We are recognized by the one 
agency that we should be as a labor union in this country, and 
that is the U.S. Government. We have to report just like 
everybody else.
    Ms. Norton. You are not a part of any collective bargaining 
agreement.
    Mr. Mcgee. No, not in the Postal Service.
    Ms. Norton. In the Postal Service.
    Mr. Mcgee. In the Postal Service. However, we do have an 
exclusive at the one agency responsible for the public health, 
and that is the Centers for Disease Control.
    Ms. Norton. Well, I want to thank both of you for this 
important testimony. We have tried during this hearing to make 
sure we spanned the entire array, yes, including your union, 
Mr. McGee----
    Mr. Mcgee. Thank you.
    Ms. Norton [continuing]. Of those who have any involvement 
in Brentwood, and your testimony has been valuable to us. As we 
hear it, we communicate these matters back to the post office 
to get answers concerning them.
    I want to thank not only these last two witnesses for 
remaining so long and being so patient, but to thank the many 
members of the audience who came, including many employees, 
many residents who are trying to find out for themselves so 
that they can make an independent judgment.
    We think that is the intelligent and careful way to try to 
evaluate what is happening. I appreciate their interest. I 
appreciate the willingness of Gallaudet University and the 
Kellogg Center to donate this facility so that we could have a 
field hearing on this important matter.
    I want to indicate to those who did not testify that the 
record will be open for five legislative days, so that is more 
than 5 days, in order to receive the testimony of anybody else 
who would like to testify. I would like to particularly thank 
our sign language interpreters. This is a hard and important 
job that they do--Pamela Harrison and Tyrone Harper, who 
assisted us during this hearing.
    I would also like to thank our staff without whom this 
hearing simply would be impossible, who do all of the grunt 
work in preparation for hearings like this--Jean Gosa, Denise 
Wilson, Jon Bouker, Cheryl Williams, Doxie McCoy from my staff; 
from the staff of Congresswoman Morella, Russell Smith, Matthew 
Batt, Shalley Kim, Robert White, Heea Vazirani-Fales--all of 
whom contributed to this hearing.
    And let me finally offer the apologies of the good chair of 
the committee who wanted very strongly to be here, and had 
congressional business that made it absolutely impossible for 
her to attend because she had amendments of her own on the 
floor, so that she had absolutely no choice. She does want me 
to indicate that she will look at the record and will work 
closely with me in followup to this hearing. We do not have 
hearings as 1-day shows. We have hearings in order to learn 
what the Congress should do.
    I want to thank those who provided security and who took 
the record for this hearing, and I want to indicate, as I thank 
everyone who attended once again, that this hearing on 
Brentwood past and future is now concluded.
    [Whereupon, at 1:18 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Constance A. Morella and 
additional information submitted for the hearing record 
follow:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   - 

</pre></body></html>
